APPENDIX TABLE OF CONTENTS
Order of the United States Court of Appeals for
the Fifth Circuit (September 16, 2019) ............. 1a
Order of the United States District Court for the
Western District of Texas, Waco Division
(October 17, 2018) .............................................. 3a
Order of the United States District Court for
the Western District of Texas, Waco Division
(September 17, 2018).......................................... 6a
Order of the Court of Criminal Appeals of Texas
(March 21, 2018) ............................................... 16a
Order on Objections to Findings of Fact and
Conclusions of Law and Request for an
Evidentiary Hearing of the Judicial District
Court of Bell County, Texas (Signed by Judge
John Garnett) (March 21, 2018) ..................... 19a
Findings of Fact and Conclusions of Law of the
Judicial District Court of Bell County, Texas
(Signed by Judge Fancy H. Jesek)
(January 29, 2018)............................................ 21a
District Attorney Motion to Enter Proposed
Findings of Fact and Conclusions of Law
(January 26, 2018)............................................ 55a
Findings of Fact and Conclusions of Law
(Proposed) ......................................................... 57a
Notice of Receipt of Supplemental Clerk’s Record
(March 22, 2018) ............................................... 90a

App.1a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
(SEPTEMBER 16, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________
JASON ISAIAH ROBINSON,
v.

Petitioner-Appellant,

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT
OF CRIMINAL JUSTICE, CORRECTIONAL
INSTITUTIONS DIVISION,

Respondent-Appellee.

________________________
No. 18-50968

Appeal from the United States District Court
for the Western District of Texas
Before: Leslie H. SOUTHWICK,
United States Circuit Judge.
ORDER:
Jason Isaiah Robinson, Texas prisoner # 739603,
filed a 28 U.S.C. § 2254 petition challenging the life
sentence imposed for his capital murder conviction in
view of Miller v. Alabama, 567 U.S. 460 (2012), which
was made retroactively applicable to cases on collateral
review by Montgomery v. Louisiana, 136 S. Ct. 718
(2016). The district court dismissed Robinson’s petition
as barred by the statute of limitations in 28 U.S.C.

App.2a
§ 2244(d) because it was not filed within one year of
the Supreme Court’s decision in Miller. Robinson moves
for a certificate of appealability (COA) to appeal the
dismissal of his petition as untimely. He argues that
the limitations period should have been equitably
tolled during the period between the Supreme Court’s
decisions in Miller and Montgomery to cure the harsh
result under Dodd v. United States, 545 U.S. 353, 359
(2005) (holding that the one-year limitations period
runs from the date on which the Supreme Court
initially recognized the right asserted, regardless of
when it is made retroactively applicable to cases on
collateral review).
To obtain a COA, a petitioner must make a substantial showing of the denial of a constitutional
right. See 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell,
537 U.S. 322, 336 (2003); Slack v. McDaniel, 529 U.S.
473, 484 (2000). To make this showing, the applicant
must “demonstrat[e] that jurists of reason could disagree with the district court’s resolution of his constitutional claims or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327.
When the district court has rejected a habeas application on a procedural ground, the applicant must
show “that jurists of reason would find it debatable
whether the petition states a valid claim of the denial
of a constitutional right and that jurists of reason
would find it debatable whether the district court
was correct in its procedural ruling.” Slack, 529 U.S.
at 484. Robinson has not made such a showing. Accordingly, Robinson’s COA motion is DENIED.
/s/ Leslie H. Southwick
United States Circuit Judge

App.3a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS, WACO DIVISION
(OCTOBER 17, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
________________________
JASON ISAIAH ROBINSON
v.
LORIE DAVIS
________________________
No. W-18-CA-090-ADA
Before: Alan D ALBRIGHT,
United States District Judge.
On September 17, 2018, the Court dismissed
Petitioner’s application for habeas corpus relief as
time-barred. On October 15, 2018, the Court received
Petitioner’s Motion to Alter or Amend the Judgment
Pursuant to Rule 59(e) (#17). Petitioner asserts that
the Court improperly calculated the limitations period.
After consideration of Petitioner’s motion, it is
denied in part and dismissed in part. To the extent
Petitioner challenges the Court’s procedural rulings,
his motion is denied. Petitioner argues that the Court
was mistaken to calculate the limitations period based
on the Supreme Court’s decision in Miller v. Alabama,
567 U.S. 460 (2012). Instead, Petitioner asserts the

App.4a
Court should have calculated the limitations period
based on the Supreme Court’s decision in Montgomery
v. Louisiana, 136 S. Ct. 718 (2016). In Miller, the
Supreme Court held that mandatory life without parole
was unconstitutional for juvenile offenders. Petitioner
was sentenced to life with parole. Petitioner argues
that the state court’s failure to grant Petitioner relief
pursuant to Miller was a violation of Montgomery and
therefore the relevant date for limitations purposes is
the date Montgomery was decided. But this argument
only works if Miller applies to Petitioner.
Petitioner argues that the holding in Miller should
be expanded to include those juveniles sentenced to
life with parole and that the state court’s failure to
grant relief to Petitioner therefore violates Montgomery.
The foundation of this argument is an attempt to
expand the holding of Miller. And in order for this
Court to find that Miller should be thus expanded,
this Court would have had to examine the issue within
a year of the decision in Miller. As the Court explained
in its previous order, this petition was not filed within
that time period and therefore Petitioner’s motion to
amend the judgment is denied in part.
To the extent Petitioner challenges the merits of
the Court’s rulings, Petitioner’s motion is regarded as
a successive § 2254 application and is dismissed. See
Gonzalez v. Crosby, 545 U.S. 524, 530-32 & n. 4 (2005);
Williams v. Thaler, 602 F.3d 291 (5th Cir. 2010). Petitioner has not obtained leave to file a successive
§ 2254 motion. See 28 U.S.C. § 2244(b)(3)(A); § 2254.
Because § 2244(b)(3)(A) “acts as a jurisdictional bar
to the district court’s asserting jurisdiction over any
successive habeas petition until [the Fifth Circuit]
has granted the petitioner permission to file one,” the

App.5a
district court is without jurisdiction to consider the
action. United States v. Key, 205 F.3d 773, 774 (5th Cir.
2000).
Petitioner also seeks a certificate of appealability,
but the Court has already reviewed and ruled on that
issue. Petitioner is not entitled to a certificate of appealability.
It is therefore ORDERED that the Motion to Alter
or Amend the Judgment Pursuant to Rule 59(e) (#17)
is DENIED IN PART AND DISMISSED IN PART.
It is further ORDERED that a certificate of
appealability is DENIED, as reasonable jurists could
not debate the dismissal or denial of the petitioner’s
motion on substantive or procedural grounds, nor find
that the issues presented are adequate to deserve
encouragement to proceed. Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
SIGNED on October 17, 2018
/s/ Alan D Albright
Alan D Albright
United States District Judge

App.6a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS, WACO DIVISION
(SEPTEMBER 17, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
________________________
JASON ISAIAH ROBINSON
v.
LORIE DAVIS
________________________
No. W-18-CA-090-RP
Before: Robert PITMAN,
United States District Judge.
Before the Court are Petitioner’s Application for
Habeas Corpus Relief under 28 U.S.C. § 2254 (#1);
Petitioner’s Brief in Support (#13); Respondent’s
Motion to Dismiss (#11); and Petitioner’s Response
(#12). Petitioner is represented by counsel and has
paid the filing fee. For the reasons set forth below,
Petitioner’s application for writ of habeas corpus is
dismissed as time-barred.

App.7a
STATEMENT OF THE CASE
A.

Procedural History

Petitioner was charged with capital murder alleged
to have occurred on October 14, 1994. Petitioner was
16 years’ old at the time of the offense. See Robinson
v. State, No. 03-95-00559-CR, slip op. at *1 (Tex.
App.—Austin 1996, pet. ref’d). The Juvenile Court of
Bell County entered an order waiving juvenile jurisdiction on March 16, 1995. On August 9, 1995, Petitioner was found guilty by a jury of capital murder in
the 27th District Court of Bell County and was
sentenced to life in prison. Id. The Third Court of
Appeals upheld Jason’s conviction on May 29, 1996.
Robinson, No. 03-95-00559-CR, slip op. at *11. The
Court of Criminal Appeals denied his petition for
review on November 14, 1996. See Robinson v. State,
PD-1158-96 (Tex. Crim. App. 1996).
The law in effect at the time of the offense provided
that a person guilty of capital murder, who was not
facing the death penalty, received a life sentence. See
Tex. Penal Code Ann. § 19.01(a) (West 1993); Ex. A
at 6-7. The parole law in effect at the time provided
that all persons “serving a life sentence for a capital
felony” would be “eligible for release on parole” after
serving 40-years flat time. See Tex. Code Crim. Proc.
art. 42.18, § 8(b)(2); Resp. Ex. B (#11-2) (TDCJ-CID
parole-eligibility summary indicating that Robinson
parole calculation was “FLAT–40 YRS” or “11 13 2034”).
Petitioner filed a state application for writ of
habeas corpus challenging his conviction on December 31, 1998. On June 9, 1999, the Court of Criminal
Appeals granted the application as to an award of jail
credit and otherwise denied it. See Ex parte Robinson,

App.8a
No. 73, 419, slip op. at *2. Petitioner filed a second
state application for writ of habeas corpus on January
26, 2017. The Court of Criminal Appeals dismissed
the application with a written order as successive on
March 21, 2018. Petitioner filed his federal habeas
petition on March 22, 2018.
B.

Factual Background

The Third Court of Appeals summarized the facts
as follows:
On the morning of October 14, 1994, the
body of Troy David Langseth was found on
the floor of the 19th Hole Pawn Shop in
Killeen, where Langseth worked as a clerk.
Langseth’s mouth was covered with duct
tape and he had been stabbed four times. The
fatal wound penetrated Langseth’s heart
and lungs. It was later determined that seventeen firearms had been stolen from the pawn
shop.
Daniel Park testified that he was a member
of a gang called Gong Pai, which he said was
a Korean term for gangster. Park, appellant,
and Freddie Li, who were also members of
the gang, formulated a plan to steal guns
from the pawn shop, killing the clerk and
taking the store’s security videotape in the
process. On the morning of the offense, the
three young men drove to the 19th Hole in
Park’s pickup. Park waited outside while
appellant and Li, armed with pistols and a
knife, went inside. Appellant and Li returned
to the truck a few minutes later. Li had the
stolen guns and the security videotape in a

App.9a
duffle bag. Appellant was carrying the knife,
on which Park saw blood. Appellant was
angry because Li had made him pull the
knife from the clerk’s body. After changing
clothes and hiding the stolen guns, Park drove
appellant to school. He and Li then drove to
a rural location where they burned the
videotape and other evidence. They threw
the knife into a lake.
Benjamin Mullins, another gang member,
testified that he helped plan the pawn shop
robbery with appellant and Li, but that he
had not intended that the clerk be killed.
After the robbery and murder, Park, Li, and
appellant described the crime to Mullins.
According to their accounts, appellant first
bound and gagged the clerk, then he and Li
seized the guns and the videotape, and
finally Li stabbed the clerk.
Rick Lomba, also a member of Gong Pai,
testified that he and his brother purchased
two of the stolen guns from Li and Park.
Appellant later told Lomba that he and Li
committed the robbery and murder at the
pawn shop, saying it was easy.

Robinson, No. 3-95-00559-CR, slip op. at *1-2.
C.

Petitioner’s Grounds for Relief
Petitioner raises the following grounds for relief:
1.

The capital murder sentencing scheme contained in Texas Penal Code Section 19.03(a)(2)
violates the Eighth Amendment.

App.10a
2.

The Eighth Amendment categorically bars a
life sentence for a juvenile who neither killed
nor intended to kill.

3.

The Juvenile Court’s transfer of jurisdiction
to adult court violates the Fourteenth Amendment and was legally insufficient.

Pet. (#1) at 6-10, Br. (#13) at 16-53.
DISCUSSION AND ANALYSIS
A.

Statute of Limitations

Federal law establishes a one-year statute of
limitations for state inmates seeking federal habeas
corpus relief. See 28 U.S.C. § 2244(d). That section
provides, in relevant part:
(d)(1) A 1-year period of limitation shall apply to
an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a
State court. The limitation period shall run from
the latest of—
(A) the date on which the judgment became final
by the conclusion of direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing
an application created by State action in
violation of the Constitution or laws of the
United States is removed, if the applicant
was prevented from filing by such State
action;
(C) the date on which the constitutional right
asserted was initially recognized by the
Supreme Court, if the right has been newly

App.11a
recognized by the Supreme Court and made
retroactively applicable to cases on collateral
review; or
(D) the date on which the factual predicate of
the claim or claims presented could have been
discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction or other collateral
review with respect to the pertinent judgment or
claim is pending shall not be counted toward any
period of limitation under this subsection.
Petitioner concedes that his application would be
barred by the statute of limitations under 28 U.S.C.
§ 2244(d)(1)(A), but contends that 28 U.S.C. § 2244
(d)(1)(C) applies to his case. Petitioner argues that the
Supreme Court’s decision in Montgomery v. Louisiana,
136 S. Ct. 718 (2016) was the starting point for the
one-year limitations period. The problem for Petitioner, however, is that the one-year limitations period
started on the date the Supreme Court decided Miller
v. Alabama, 567 U.S. 460 (2012). The Supreme Court
explained, in Montgomery, that “Miller announced a
substantive rule of constitutional law that is retroactive.” Montgomery, 136 S. Ct. at 732. Montgomery
itself, however, did not recognize a new constitutional right.
The Supreme Court addressed this issue in Dodd
v. United States, 545 U.S. 353 (2005). The Court
explained that the language of § 2244(d)(1)(C) meant
that the limitations clock started on the date when
the right asserted was initially recognized by the
Supreme Court, not the date on which that right was

App.12a
determined to be retroactively applicable. Id. at 35859. The Court recognized that this may lead to “harsh
results in some cases” because “an applicant who files
a second or successive motion seeking to take advantage
of a new rule of constitutional law will be time-barred
except in the rare case in which this Court announces
a new rule of constitutional law and makes it retroactive
within one year.” Id. at 359.
Even if the Court agreed with Petitioner’s argument in ground one that Texas sentences of life with
parole for juveniles were functionally equivalent to
sentences of life without parole, and thus violated
Miller, Petitioner would have had to file his federal
case within one-year of the decision in Miller—by
June 25, 2013—in order for the Court to reach that
issue. Likewise, Petitioner’s argument in ground two
is premised on Justice Breyer’s concurring opinion in
Miller. Petitioner did not file his state habeas application or his federal application within one year of
the Supreme Court’s decision in Miller. Therefore,
his claims in grounds one and two of his application
are time-barred.
As for Petitioner’s ground three, he appears to
rely on the Court of Criminal Appeals’ decision in
Moon v. State, 451 S.W.3d 28, 50 (Tex. Crim. App. Dec.
10, 2014). Even assuming that decision were viewed
as a qualifying event under § 2244(d)(1)(C) or (d)(1)(D),
Petitioner also did not file an application within a
year of that decision. Thus, Petitioner’s ground three
is time-barred.
Petitioner also contends he is eligible for equitable
tolling. “[A] litigant seeking equitable tolling bears
the burden of establishing two elements: (1) that he
has been pursuing his rights diligently, and (2) that

App.13a
some extraordinary circumstance stood in his way.”
Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005). Although
the Fifth Circuit has permitted equitable tolling in
certain cases, it requires a finding of “exceptional circumstances.” Davis v. Johnson, 158 F.3d 806, 811
(5th Cir. 1998). Petitioner asserts that he is entitled
to equitable tolling because the State failed to provide
juvenile court documents that were requested on
February 8, 2016, but not produced until June 2, 2017.
Again, however, the request for the juvenile court
records was made nearly four years after the Supreme
Court’s decision in Miller. Even if the Court accepted
the argument that the failure to produce juvenile
court documents was an exceptional circumstance, the
statute of limitations had already expired before the
juvenile court documents were initially requested.
Thus, the application is not saved by equitable tolling.
B.

Evidentiary Hearing
Section 2254(e)(2) provides:
If the applicant has failed to develop the factual
basis of a claim in State court proceedings, the
court shall not hold an evidentiary hearing on the
claim unless the applicant shows that–
(A) the claim relies on—
(i)

a new rule of constitutional law, made
retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable; or

(ii) a factual predicate that could not have
been previously discovered through the
exercise of due diligence; and

App.14a
(B) the facts underlying the claim would be sufficient to establish by clear and convincing
evidence that but for constitutional error, no
reasonable factfinder would have found the
applicant guilty of the underlying offense.
Petitioner has failed to plead any allegations that
would entitle him to a hearing. As explained above,
Petitioner’s application is time-barred. None of the
evidence Petitioner seeks to add to the record is
targeted toward overcoming the statute of limitations.
Accordingly, to the extent Petitioner is requesting
one, the request for an evidentiary hearing is denied.
CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals
from a final order in a habeas corpus proceeding
“unless a circuit justice or judge issues a certificate of
appealability.” 28 U.S.C. § 2253(c)(1)(A). Pursuant to
Rule 11 of the Federal Rules Governing Section 2254
Cases, effective December 1, 2009, the district court
must issue or deny a certificate of appealability when
it enters a final order adverse to the applicant.
A certificate of appealability may issue only if a
petitioner has made a substantial showing of the denial
of a constitutional right. 28 U.S.C. § 2253(c)(2). The
Supreme Court fully explained the requirement associated with a “substantial showing of the denial of a
constitutional right” in Slack v. McDaniel, 529 U.S.
473, 484 (2000). In cases where a district court rejected
a petitioner’s constitutional claims on the merits, “the
petitioner must demonstrate that reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong.” Id. “When a
district court denies a habeas petition on procedural

App.15a
grounds without reaching the petitioner’s underlying
constitutional claim, a COA should issue when the
petitioner shows, at least, that jurists of reason
would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling.”

Id.

In this case, reasonable jurists could not debate
the dismissal or denial of the Petitioner’s section 2254
petition on substantive or procedural grounds, nor
find that the issues presented are adequate to deserve
encouragement to proceed. Miller-El v. Cockrell, 537
U.S. 322, 327 (2003) (citing Slack, 529 U.S. at 484).
Accordingly, the Court shall not issue a certificate of
appealability.
It is therefore ORDERED that Respondent’s Motion
to Dismiss (#11) is GRANTED.
It is further ORDERED that Petitioner’s Application for Habeas Corpus Relief under 28 U.S.C. § 2254
is DISMISSED.
It is finally ORDERED that a certificate of appealability is DENIED.
SIGNED on September 17, 2018.
/s/ Robert Pitman
Robert Pitman
United States District Judge

App.16a
ORDER OF THE COURT OF
CRIMINAL APPEALS OF TEXAS
(MARCH 21, 2018)
IN THE
COURT OF CRIMINAL APPEALS OF TEXAS
________________________
EX PARTE JASON ISAIAH ROBINSON,

Applicant.
________________________
No. WR-41,486-02
On Application for a Writ of Habeas Corpus
Cause No. Fr 45401-b in the
27th District Court from Bell County

Per Curiam.
ORDER
Pursuant to the provisions of Article 11.07 of the
Texas Code of Criminal Procedure, the clerk of the trial
court transmitted to this Court this application for a
writ of habeas corpus. Ex parte Young, 418 S.W.2d
824, 826 (Tex. Crim. App. 1967). Applicant was convicted of capital murder and sentenced to life imprisonment with the possibility of parole. The Third Court of
Appeals affirmed his conviction. Robinson v. State,
No. 03-95-00559-CR (Tex. App.—Austin May 29, 1996).
Applicant raises two claims of cruel and unusual
punishment and one claim that the certification
documents to transfer him from juvenile to adult

App.17a
court were legally insufficient. He has already filed an
11.07 habeas application attacking this conviction,
therefore he needs to overcome the bar on subsequent
applications to have his grounds addressed by this
Court. TEX. CODE CRIM. PRO. ART. 11.07 § 4. He argues
that recent cases allow him to overcome the bar on
subsequent applications.
His cruel and unusual punishment grounds rely
on the Supreme Court’s cases, Miller v. Alabama1
and Montgomery v. Louisiana2. However, these cases
apply to juvenile offenders who were given a sentence
of life without parole. Applicant was given a sentence
of life with parole. Regarding an applicant’s burden
of proof in Section 4 cases, the Court has held that in
order to satisfy art. 11.07, § 4(a)(1), an applicant must
not only establish that a new legal basis for relief
exists that was unavailable at the time of his original
habeas application, but also that the facts he alleges
are at least minimally sufficient to bring him within
the ambit of that new legal basis for relief. Ex parte
Oranday-Garcia, 410 S.W.3d 865 (Tex. Crim. App.
2013). Applicant does not show that the cases he
relies on apply to his punishment, therefore he does
not overcome his burden under § 4.
Applicant relies on this Court’s decision in Moon
v. State3 for his juvenile certification ground. This
Court has recently decided a case directly related to
raising the sufficiency of a certification in a subsequent
application. Ex parte Navarro, WR-82,264-03 __S.W.
1 467 U.S. 460 (2012).
2 577 US ___ (2016); 136 S. Ct. 718 (2016).
3 451 S.W.3d 28 (Tex. Crim. App. 2014).

App.18a
3d.__ (Tex. Crim. App. Jan. 10, 2018). The Court held
that Navarro could not overcome the § 4 bar on
subsequent applications based on this Court’s decision
in Moon because he could have reasonably formulated
the legal insufficiency ground based on prior court
opinions.
Because Applicant has not overcome his burden
regarding subsequent applications, this Court dismisses this application. TEX. CODE CRIM. PRO. ART.
11.07 § 4.
Filed: March 21, 2018
Do not publish

App.19a
ORDER ON OBJECTIONS TO FINDINGS OF FACT
AND CONCLUSIONS OF LAW AND REQUEST
FOR AN EVIDENTIARY HEARING OF THE
JUDICIAL DISTRICT COURT OF BELL COUNTY,
TEXAS (SIGNED BY JUDGE JOHN GARNETT)
(MARCH 21, 2018)
IN THE 27TH JUDICIAL DISTRICT COURT OF
BELL COUNTY, TEXAS
________________________
EX PARTE
JASON ISAIAH ROBINSON
________________________
No. 45,401-B
On this day, the Court, after considering the Applicant’s Amended Objections to Findings of Fact and
Conclusions of Law and Request for an Evidentiary
Hearing, and the State’s Response, the Court:
( X ) DENIES the Applicant’s request
The Clerk of the Court is directed to forward a
signed copy of this Order to all attorneys of record in
the case.
SIGNED AND ENTERED on 3/15/2018 3:33 PM.
/s/ John Garnett
Judge Presiding
27th District Court
Bell County, Texas

App.20a

App.21a
FINDINGS OF FACT
AND CONCLUSIONS OF LAW OF THE JUDICIAL
DISTRICT COURT OF BELL COUNTY, TEXAS
(SIGNED BY JUDGE FANCY H. JESEK)
(JANUARY 29, 2018)
IN THE 27TH JUDICIAL DISTRICT COURT OF
BELL COUNTY, TEXAS
________________________
EX PARTE
JASON ISAIAH ROBINSON
________________________
No. 45,401-B

Came on for consideration the Applicant’s request
for post-conviction Writ of Habeas Corpus relief, filed
pursuant to Article 11.07 of the Texas Code of Criminal
Procedure, and having considered the same, the Court
enters the following Findings of Fact and Conclusions
of Law:
I.
HISTORY OF THE CASE
1. The Applicant is currently in the custody of
the Corrections Institutional Division of the Texas
Department of Criminal Justice (“TDCJ”) by virtue of
a Judgment of conviction entered in the 27th District
Court of Bell County, Texas, in Cause Number 45,401,

App.22a
wherein he was convicted of the felony offense of capital
murder.
The Crime
2. The record reflects that in October of 1994,
the 16-year-old Applicant, and several other members
of the street gang “Gong Pai,” which means “gangster”
in Korean, hatched a plan to steal guns from the 19th
Hole Pawn Shop in Killeen, Texas. See Robinson v.
State, No. 03-95-00559-CR (Tex. App.—Austin, delivered May 29, 1996) (not designated for publication),
slip op. at 1-2.
3. Specifically, on the morning of October 14, 1994,
the Applicant and fellow gang members Freddie Li
and Daniel Park, drove to the 19th Hole Pawn Shop
in Park’s pickup, and while Park waited in his truck,
the Applicant and Li, armed with pistols and a knife,
entered the store. Id.
4. Once inside, they lured Troy Langseth, the
unsuspecting clerk over to show them an item, and
when he reached them, the Applicant and Li bound and
gagged him. Id.
5. They then seized numerous guns and the store
surveillance video. Id.
6. The gang members put the stolen guns and the
surveillance video in a duffle bag Li brought with
him, but before existing the store, Li stabbed the
helpless store clerk four times, killing him. Id.
7. The record reflects, that the Applicant was
charged in juvenile court with delinquent conduct, to
wit: capital murder, and was taken into custody. See
Tex. Penal Code Ann. § 19.03(a)(2) (West Supp. 1994).

App.23a
Waiver of Jurisdiction and Transfer to District Court
8. On May 16, 1995, after an investigation and a
hearing, the record reflects that the juvenile court
waived jurisdiction over the Applicant, certified him
to stand trial as an adult, and transferred his case to
district court. See Tex. Fam. Code § 54.02(a) (West
Supp. 1994).
Trial and Post-Trial Proceedings
9. On May 17, 1995, the record reflects that he
was indicted by the Bell County Grand Jury for the
27th District Court for the offense of capital murder,
in Cause Number 45,401. See Indictment.
10. On August 7, 1995, the Applicant pled not
guilty to the charge of capital murder, but after a two
day jury trial, he was found guilty and automatically
sentenced to life imprisonment. See Tex. Penal Code
Ann. § 12.31(a) (West Supp. 1994) & Judgment of
Conviction.
11. On September 6, 1995, the record reflects that
the Applicant filed a Motion for New Trial, alleging
that his confession was admitted in violation § 51.12
of the Texas Family Code, because it was taken while
he was being held at an adult detention facility. See
Motion for New Trial.
12. However, on September 14, 1995, after a hearing, the record reflects that the trial court denied the
Applicant’s motion (RR-VII, pp. 2-18).

App.24a
13. The Applicant appealed his conviction, but it
was affirmed by the Third Court of Appeals on May
29, 1996.1
14. On August 5, 1996, the record reflects that
the Applicant filed a Petition for Discretionary Review
(“PDR”) with the Court of Criminal Appeals (“CCA”),
but it was refused on October 23, 1996,2 allowing the
Third Court of Appeals to issue its Mandate on
March 24, 1997. See Mandate.
Initial Post-Conviction Application
15. On January 6, 1999, the record reflects that
the Applicant filed his initial Petition for post-conviction Writ of Habeas Corpus relief, and in it, he
alleged that: (1) he received ineffective assistance at
his trial; (2) he was illegally detained as a juvenile;
(3) there was insufficient evidence to corroborate the
accomplice witness testimony; and, (4) he was not
given credit for the time that he was held in a juvenile
detention facility before being certified to stand trial
as a adult. See Applicant’s Application, Cause No. 45,
401-A.
16. On April 21, 1999, the trial court entered
Findings of Fact and Conclusions of Law, recommending that he be granted additional jail credits, but that
he be denied all other requested relief. See Order,
Cause No. 45, 401-A.

1 See Robinson v. State, No. 03-95-00559-CR (Tex.App.—Austin,
delivered May 29, 1996) (not designated for publication).
2 See Jason Isaiah Robinson, No. PD-1158-96 (Tex.Crim.App.,
pet. ref d, October 23, 1996) (not designated for publication).

App.25a
17. In a written opinion delivered June 9, 1999,
the CCA agreed, and instructed TDCJ to credit the
Applicant’s sentence with an additional 124 days, but
ordered that he be denied all other requested relief.3
Subsequent Post-Conviction Application & Motion to
Stay
18. The record reflects that on January 26, 2017,
the Applicant filed this subsequent Petition for postconviction relief, and simultaneously filed a “Motion
to Stay Application for Writ of Habeas Corpus and
for Leave to Amend.” See Motion to Stay Application
for Writ of Habeas Corpus and Leave to Amend filed
1-26-17.
19. In this Petition, he alleged that: (1) Texas
Penal Code 19.03(a)(2)4 violates the Eighth Amendment
to the United States Constitution because it imposes
a categorical sentence of life imprisonment on any
juvenile convicted of capital murder; (2) the Eighth
Amendment bars a life sentence for a juvenile who
did not kill, or intent to kill; and, (3) the order transferring jurisdiction from the juvenile court was legally
insufficient under Moon v. Texas.

3 See Ex parte Jason Isaiah Robinson, No. WR-41,486-01
(Tex.Crim.App., delivered June 9, 1999) (not designated for
publication).
4 The Court notes that Texas Penal Code § 19.03(a)(2), the capital
murder statute, defines the offense of capital murder but imposes
no penalty for its violation. The punishment provisions are
contained in Texas Penal Code § 12.31(a). Therefore, the Court
will consider the Applicant’s Petition a challenge to the constitutionality of the Texas capital punishment scheme for juvenile
offenders.

App.26a
20. In his Motion to Stay his Petition, the Applicant explained, that he filed his Petition “reluctantly”
in order to “properly preserve federal review over
these claims,” but that he had so far been unable to
obtain the requisite records, and requested that the
habeas court “stay” his Petition until August 1, 2017,
so that he may obtain those documents, follow up as
appropriate, and amend his Petition accordingly.
21. The State filed its Answer to the Applicant’s
Petition on February 7, 2017, generally denying its
allegations, but the habeas court took no action on
his Motion to Stay.
22. On March 30, 2017, the District Clerk forwarded to the CCA the then existing habeas record in
the Applicant’s case, and on March 31, 2017, the
CCA acknowledged receipt.
23. On August 3, 2017, the Applicant filed a
“Motion to Stay Application for Writ of Habeas Corpus”
in the CCA, and on August 9, 2017, the State filed a
Response to the Applicant’s Motion.
24. On September 13, 2017, the CCA granted the
Applicant’s Motion to Stay.5
5 The Court finds that neither the State nor the habeas court
was notified that the Applicant’s Motion to Stay had been
granted by the CCA on September 13, 2017. On December 1,
2017, the Applicant filed his Amended Petition with the Bell
County District Clerk. Upon receipt, the habeas court’s file was
searched in an effort to locate notice of the ruling from the CCA
on the Applicant’s Motion to Stay, and when none was found in
either file, contacted the CCA by telephone. The post-conviction
writ section of the CCA verified that the Applicant’s Motion to Stay
was indeed granted on September 13, 2017, but, unfortunately,
notice of the CCA’s action was not sent to the habeas court or
the State, only to the Applicant. The CCA apologized for the

App.27a
25. On December 1, 2017, the Applicant filed an
Amended Petition for Writ of Habeas Corpus relief
alleging the same three grounds advanced in his
original filing on January 26, 2017.

Allegations of the Applicant
26. In ground one the Applicant alleges that
Texas Penal Code 19.03(a)(2) violates the Eighth
Amendment to the United States Constitution because
it imposes a categorical sentence of life on any juvenile
convicted of capital murder.
27. In ground two the Applicant alleges that the
Eighth Amendment to the United States Constitution
categorically bars a life sentence for a juvenile who
did not kill or intent to kill.
28. In ground three the Applicant alleges that
the juvenile court transfer order certifying him to
stand trial as an adult was legally insufficient under

Moon v. Texas.

Necessity for an Evidentiary Hearing or Expansion
of the Record
29. The Court finds that none of the Applicant’s
allegations require the resolution of controverted,
previously unresolved facts, therefore, the existing
record is sufficient to answer his Petition.
Ground One-TPC § 19.03(a)(2) Violates the Eighth
Amendment
30. The Court finds that in ground one the
Applicant alleges that Texas Penal Code Section 19.03
error.

App.28a
(a)(2) violates the Eighth Amendment to the United
States Constitution because it imposes a mandatory
sentence of life on any juvenile convicted of capital
murder.6
31. Specifically, according to the Applicant, Texas
Penal Code § 19.03(a)(2), is unconstitutional because it
imposes a “categorical” sentence of life on a juvenile,
and does not allow for the individualized consideration
of the “diminished capacity” of a juvenile before the
“imposition of any life without parole sentence.” See
Applicant’s Amended Memorandum, p. 16.
32. It is well settled, that the facial constitutionality of a criminal statute is reviewed de novo,
and it is presumed that the statute is valid, and that
the legislature did not act arbitrarily and unreasonably in enacting it. See Ex parte Lo, 424 S.W.3d 10,
14 (Tex. Crim.App. 2013) (de novo review), and Rodriguez v. State, 93 S.W.3d 60, 69 (Tex. Crim.App. 2002)
(validity presumed).
33. According to the Applicant, the categorical
ban on certain punishments for juveniles began with
the United States Supreme Court’s decision in Roper
v. Simmons,7 543 U.S. 551, 125 S. Ct. 1183, 161 L.Ed.
6 The mandatory life sentence was imposed on the Applicant by
Texas Penal Code § 12.31(a). See Tex. Penal Code Ann., § 12.31(a)
(West Supp. 1994).
7 In Roper, 17-year-old Christopher Simmons, in chilling callous
terms, told friends that he wanted to “murder” someone. He
proposed to them to commit burglary and murder by breaking
and entering, tying up a victim, then throwing the victim off a
bridge. He assured his friends that they would get away with it
“because they were minors.” On the morning of the murder,
Simmons and his friend, Charles Benjamin, entered the home of
the victim, Shirley Crook, by reaching through an open window

App.29a
2d 1 (2005), when it announced a ban on the imposition
of the death penalty for offenders who were under 18
years-of-age when they offended because they were
“less culpable” than the average criminal.
34. The Court finds, that next, the Applicant cites
Graham v. Florida,8 560 U.S. 48, 130 S. Ct. 2011, 176
and unlocking the back door. Mrs. Crook woke up and called out
“Who’s there?” In response, Simmons entered her bedroom, and
with duct tape, covered her eyes and mouth and bound her
hands. Simmons and Benjamin put Mrs. Crook in her own
minivan and drove to a Missouri state park. After they arrived,
they reinforced the bindings, covered her head with a towel, and
walked her to a railroad trestle spanning the Meramec River.
They then tied her hands and feet together with electrical wire,
wrapped her whole face in duct tape and threw her from the
bridge, drowning her in the waters below. The next day, Steve
Crook, Shirley Crook’s husband, returned from an overnight
trip to find his bedroom in disarray and his wife missing.
Simmons confessed to the crime, and was tried for stealing,
kidnapping, burglary and murder. He was found guilty and
sentenced to death. Roper, 543 U.S. at 556.
8 According to the Supreme Court’s opinion, Terrance Jamar
Graham, the defendant, was born to drug addicted parents in
January of 1987. He was diagnosed with attention deficit hyperactivity disorder in elementary school, and began smoking
cigarettes at nine, and smoking Marijuana at 13. In July of
2003, when Graham was age 16, he and three other school-age
youths attempted to rob a barbeque restaurant in Jacksonville,
Florida. One of the youths, an employee, left the back door to
the restaurant unlocked, and Graham and one of the other
youths, wearing masks, entered the building. Graham’s accomplice
twice struck the restaurant manager on the back of the head
with metal bar, but when he started yelling they ran out and
fled in a car driven by one of the youths. The manager required
stitches for the head injury, but no money was taken. Graham
was arrested and charged as an adult with armed burglary with
assault (a first degree felony), and attempted armed robbery (a
second degree felony). He pled guilty on December 18, 2003, and
after convincing the judge that he had decided to “turn his life

App.30a
L.Ed.2d 825 (2010), as more evidence of the Supreme
Court’s ban on “categorical” sentences for juveniles,
when it announced that a sentence of life with-the
possibility of parole (“LWPOP”) for a juvenile who did
not commit, or intent to commit homicide, constituted
“cruel and unusual punishment” under the Eighth
Amendment.
35. According to the Supreme Court, “[a] State
need not guarantee the offender eventual release, but
if it imposes a sentence of life, it must provide him or
around,” he was placed on three years deferred adjudication in
each case. He was required to spend the first 12 months of his
probation in the county jail, but after being given credit for pretrial detention, was released on June 25, 2004. On December 2,
2004, less than six months later, he was arrested for a home
invasion robbery. He and two adult accomplices had forced their
way into a home, held the two men there at gun point while
they ransacked the home, and left after they barricaded the two
victims in a closet. Later that same evening, Graham and his
two cohorts attempted a second robbery in which one of them
was shot. Graham, who was driving his father’s car, dropped
the two off at the hospital and fled. A policeman at the hospital
signaled for him to stop, but Graham drove away at a high rate
of speed. However, he was later apprehended when he crashed
into a telephone pole. Three handguns were found in the wrecked
car. When detectives interviewed Graham, who was just shy of
his 18th birthday, he denied involvement in the crimes. After a
violation report from Graham’s probation officer was filed, the
Court held a hearing. Graham admitted to violating his probation
by attempting to avoid arrest, and the Court found that he had
committed the home invasion robbery, possessed weapons, and
engaged in other criminal activity, and adjudicated him guilty.
He was sentenced to life for the armed burglary, and 15 years
for the attempted armed robbery. Because Florida had abolished
its parole system, a life sentence gave Graham no possibility of
release unless he was granted executive clemency. Graham, 560
U.S. at 54-57.

App.31a
her with some realistic opportunity to obtain release
before the end of that term.” Graham, 560 U.S. at 82.
36. Next, in Miller v. Alabama,9 567 U.S. 460, 132
S. Ct. 2455, 183 L.Ed.2d 407 (2012), cited by the Applicant, the Supreme Court said with regard to the
9 In Miller v. Alabama, the Supreme Court examined mandatory
sentencing schemes involving juveniles in two states. In Arkansas,
14-year-old Kuntrell Jackson and two other boys decided to rob
a video store. In route to the store, Jackson learned that one of
the boys had a sawed-off shot gun up his sleeve. They arrived at
the store and Jackson stayed in the car while the others went
inside. The one with the gun demands money from the clerk,
and points the gun at her, but she refuses. Jackson goes inside
he store and finds money still being demanded from the clerk,
and she still refusing to hand it over. However, when she
threatens to call the police, she is shot and killed. The boys flee
empty handed. Jackson is tried as an adult for capital murder
and armed robbery, is convicted by a jury of both crimes, and is
automatically sentenced to life without the possibility of parole.
One night in 2003 in Alabama, 14-year-old Evan Miller, who, by
all accounts had had a very troubled childhood, was at home
with Colby Smith, a friend, when a neighbor, Cole Cannon, came
over to make a drug deal with Evan’s drug addicted mother.
The two boys followed Cannon back to his trailer where they all
smoked Marijuana and drank. Cannon passed out, Evan took
Cannon’s wallet from his back pocket, splitting the $300 inside
with Colby. When Evan tried to put the wallet back in Cannon’s
pocket, he woke up and grabbed Evan by the throat. Evan hit
Cannon with a nearby baseball bat, and kept hitting him even
after he was released. Before delivering the final blow, he
covered Cannon’s head with a sheet and said “I am God, I’ve
come to take your life. The boys left but returned to cover up
their crime by setting the trailer on fire. Cannon died from his
injuries and smoke inhalation. Evan was charged with murder
in the course of arson and tried as a adult. The jury convicted him
and he was sentenced to a mandatory life without the possibility
of parole. The Alabama Court of Criminal Appeals affirmed the
decision. Miller, 567 U.S. at 465-469.

App.32a
mandatory sentencing schemes for juveniles in
Alabama and Arkansas:
“Graham, Roper, and our individualized sentencing decisions make clear that a judge or
jury must have the opportunity to consider
mitigating circumstances before imposing
the harshest possible penalty for juveniles.
By requiring that all children convicted of
homicide received lifetime incarceration without the possibility of parole, regardless of
their age and age-related characteristics and
the nature of their crimes, the mandatory
sentencing schemes before us violate this
principle of proportionality, and so the Eighth
Amendment’s ban on cruel and unusual
punishment.” Miller, 567 U.S. at 489.
37. Finally, in Montgomery v. Louisiana,10 ___
U.S. ___ , 136 S. Ct. 718, 193 L.Ed.2d 599 (2016), the
Supreme Court held that Miller v. Alabama announced
a new substantive rule of law, i.e., that sentences of
mandatory LWPOP for juveniles violates the Eighth
Amendment, and, therefore, Miller is retroactive in
cases on collateral review. Montgomery, 136 S. Ct. at
736.
10 In Montgomery, the 17-year-old defendant killed a deputy
sheriff in East Baton Rouge, Louisiana, in 1963. He was convicted
of murder and sentenced to death, but in 1966 the Louisiana
Supreme Court reversed the conviction, after finding that public
prejudice prevented a fair trial. He was retried, and that jury
returned a verdict of guilty without capital punishment. Under
Louisiana law, this verdict required the trial court to impose an
automatic life without parole sentence. The defendant was 69
years old when the Supreme Court issued its opinion in his
case. Montgomery, L.Ed.2d at 610.11

App.33a
38. The Applicant maintains that the Supreme
Court’s decisions in Roper, Graham, and Miller are
supported by “common sense,” and an “ever-growing
body of scientific research” that: (1) juveniles are less
capable of mature judgment than adults, and are more
prone to engage in risky behaviors; (2) juveniles are
more vulnerable to negative influences and outside
pressures; and (3) juveniles have a greater capacity
for change and reform than adults. See Applicant’s
Amended Memorandum, pp. 17-19.
39. In addition, the Court finds that according
to the Applicant, the imposition of a mandatory life
sentence on a juvenile convicted of capital murder
precludes parole eligibility until he serves 40 calendar
years, and based on a statistical analysis of Texas’
parole grant rates, he speculates that he will “almost
certainly never be paroled and will die in prison
without any ‘meaningful opportunity’ for release.” See
Applicant’s Amended Memorandum, pp. 20-21.
“Functional Equivalent” of LWPOP & Individualized
Sentencing
40. The Court finds, that central to the Applicant’s
request for relief is his theory that the automatic life
sentence he was assessed in the instant case, is the
“functional equivalent” of a sentence of LWPOP. See
Applicant’s Amended Memorandum, p. 20.
41. This is so, according to the Applicant, because
he is excluded from parole eligibility, or consideration
for good time, until he serves 40 calender years, at
which point the Board of Pardons and Paroles has the
sole discretion to grant or deny parole.11 Id. at 20-21.
11 The Applicant correctly notes that there is no constitutional

App.34a
42. The Court finds that the Applicant cites a
statistical analysis of parole grant rates in all the
50 States that was prepared by the University of
Minnesota in 2016, which found that Texas’s overall
parole grant rate is 36 percent, but it has averaged
about 8 percent for those conviction of capital murder.
See Applicant’s Amended Memorandum, p.21.
43. Moreover, the Court finds that the Applicant
cites an article published in the Houston Press (a
weekly newspaper distributed in Houston, Texas) dated
January 12, 2016, which claims that of the 366 Texas
juveniles sentenced to LWPOP for capital murder since
1962, only 17—less than 5 percent—have ever been
released. Id. at 22.
44. The Houston Press article, attached to the
Applicant’s Petition as Exhibit-F, also cites Joshua
Rover, state advocacy associate with the Sentencing
Project based in Washington, D.C., who is quoted as
saying:
“ . . . Texas’s new sentencing12 is among the
longest in the country that inmates incarcerated since they were teens must serve before
they have a chance at release. He called it a
right to parole because the very existence of a parole system is
discretionary with the individual State. See Greenholtz v. Inmates
of Nebraska, 442 U.S. 1, 99 S. Ct. 2100, 60 L.Ed.2d 668 (1979).
12 In response to Miller v. Alabama, the Texas Legislature, amended, effective July 22, 2013, Texas Penal Code Section 12.31(a) to
say that” . . . An individual adjudged guilty of a capital felony in
a case in which the state does not seek the death penalty shall
be punished by imprisonment in the Texas Department of
Criminal Justice for: (1) life, if the individual committed the
offense when younger that 18 years of age.” See Tex. Penal
Code Aim., § 12.31(a)(1) (West Supp. 2018).

App.35a
de facto life sentence. And, he added, the
possibility of parole guarantees nothing. ‘A
chance at parole is only real if people actually
receive it, he says.’’’ See Applicant’s Amended
Memorandum, Appendix to Memorandum,
Exhibit-F, p. 6 (“Sorry for Life?: Ashley Erin
Didn’t Kill Anyone, But She Drove Home
the Boys Who Did).
45. First, the Court finds that the Applicant’s
use of the term “an automatic life sentence” and “an
automatic sentence of LWPOP” interchangeably,
because in his view they are the same thing, but that
is not the current state of the law in Texas, or in the
Untied States.
46. Second, in Miller and Graham, the Supreme
Court banned sentences of automatic LWPOP for
juveniles who had been convicted of homicide and nonhomicide crimes, but they did not ban automatic life
sentences, and it is undisputed by the Applicant that
he received a life sentence.
47. Third, in Lewis v. State, 428 S.W.3d 860 (Tex.
Crim.App. 2014), which included a Bell County case,
the CCA held that two juveniles who were initially
sentenced to LWPOP, but whose sentences were
reformed to “life” after the Miller decision and the
amendments to the Texas Penal Code, were not entitled
to individualized sentencing because they were no
longer subject to sentences of LWPOP. See Lewis at
863865.
48. Fourth, in Turner v. State, 443 S.W.3d 128
(Tex.Crim.App. 2014), the defendant, who was under
age 18 when he committed capital murder, was tried,
convicted, and sentenced to LWPOP, but while his case

App.36a
was on appeal, Miller was decided by the Supreme
Court, and the appellate court agreed that Miller
applied and remanded his case for a new sentencing
hearing. See Turner at 128.
49. The Court finds, that the defendant in Turner
filed a PDR contending, in part, that he was entitled
under Miller to individualized sentencing, and asked
the CCA to direct the appellate court to order such a
hearing, but the CCA declined, holding that the
defendant was entitled to have his sentence reformed
from LWPOP to life, but was not entitled to an individualized sentencing hearing. Id. at 129.
50. According to the Applicant, the CCA in Lewis
and Turner addressed the issue of whether sentences
that are reformed from LWPOP to life had to be individualized, but did not address whether a life
sentence for a juvenile is the “functional equivalent”
of a sentence of LWPOP. See Applicant’s Amended
Memorandum, pp. 34-35.
51. However, the Court finds that implicit in
the CCA’s decisions in Lewis and Turner is an answer
to the “functional equivalency” question, i.e., if the
CCA had held that the defendants were entitled to
individualized sentencing pursuant to Miller, could it
even be argued that it had not found that automatic
life was the functional equivalent of LWPOP?
52. Moreover, in Shalouei v. State, 523 S.W.3d
766 (Tex.App.—Houston [14th Dist.] 2017, pet. ref d),
the Fourteenth Court of Appeals in its opinion affirming
the defendant’s conviction of life imprisonment (he
was 17 when he committed the offense), noted that in
Montgomery v. Louisiana, the Supreme Court held that
a State may remedy a Miller violation by permitting

App.37a
juvenile homicide offenders to be considered for parole
rather than resentencing them. See Shalouei at 769.
53. The Shalouei court added:
“In determining that Texas juvenile offenders
no longer face life without parole after
Penal Code section 12.31(a) was amended,
the Court of Criminal Appeals did not specifically discuss the mandatory 40-year minimum time served . . . But the court’s determination affirming sentences of life with the
possibility of parole for juveniles—which
also would have been subject to a 40-year
mandatory minimum served under Government Code section 508.145(b)—confirms that
the statutory requirement of 40 years’ time
served before parole eligibility does not equate
to a sentence of life without parole. . . . ”
See Shalouei at 769; Also see Matthews v.
State, 513 S.W.3d 45, 61 (Tex.App.—Houston
[14th Dist.] 2016. pet. red) (following CCA
holding in Lewis rejecting claims that Texas
punishment scheme for juvenile capital offenders who are tried as adults is unconstitutional).
54. In summary, the Court finds that the Applicant’s life sentence was not the “functional equivalent”
of a LWPOP sentence, and it follows then, that the
Supreme Court’s holding in Miller v. Alabama, requiring individualized sentencing assessments in LWPOP
cases involving juveniles, does not apply to the Applicant’s case.
55. In addition, the Court finds Texas’s punishment scheme for juvenile capital offenders who are

App.38a
tried and sentenced as adults, which includes Texas
Penal Code §§ 19.03(a)(2) and 12.31(a)(1), does not
violate the Eighth Amendment’s cruel and unusual
punishment prohibition by being disproportionate,
and, is, therefore, constitutional.
Ground Two-The Eighth Amendment Categorically
Bar a Life Sentence for Juvenile
56. In ground two, the Applicant alleges that the
Eighth Amendment categorically bars a life sentence
for a juvenile who did not kill, or intent to kill, again,
advancing the narrative that a life sentence for a
juvenile is the “functional equivalent” of a sentence of
LWPOP.
57. According to the Applicant, this bar is in
keeping with the Supreme Court’s decisions in Graham
and Miller. See Applicant’s Amended Memorandum, p.
46.
58. However, the Court finds that in both Graham
and Miller, the juvenile defendants were sentenced
to LWPOP, which the Texas courts have distinguish
from a sentence of automatic life. See Lewis v. State
and Shalouei v. State, supra.
59. As for the merits of the Applicant’s ground,
that his sentence is barred by Miller and Graham
because he did not kill or intend to kill, he correctly
points out that the categorical bar of a LWPOP sentence
for an accomplice was not addressed in Miller.
60. The Court finds that, while it is true that
Freddie Li, the Applicant’s co-defendant, committed
the murder, and that the Applicant was convicted as
a party to the offense, the Court finds that the record

App.39a
does not support the notion that the Applicant was
little more than a bystander and reluctant participant.
Daniel Lee Park
61. The Court finds that Daniel Lee Park, one
of the Applicant’s co-defendants, testified as a State’s
witness at the Applicant’s trial, about his involvement
in a gang with the Applicant, and his connection to
the offense and its aftermath.
62. Under direct examination by Murf Bledsoe,
the prosecutor, Park testified as follows:
“Q. Mr. Park, let me ask you if you were in a
gang in the fall of 1994?
“A. Yes, sir, I was.
“Q. What was the name of the gang?
“A. The name of the gang was called Gong Pai.
“Q. What does that mean?
“A. It’s Korean for gangster.
“Q. Who was in the gang with you?
“A. There was myself, Benjamin Mullins, Rick
and Joe Lomba, Justin Luevano, Freddie Li,
Jason Robinson, a man named—a boy named
—I can’t remember his real name, but we
called him—I can’t remember his name. I
don’t remember.
Q.

You mentioned that (sic) Jason Isaiah Robinson. Do you see him in the courtroom today?

“A. Yes, sir, I do.
[* * *]

App.40a
“Q. Mr. Park, did acquisition of guns ever come
up in your gang?
“A. I’m sorry, can you define acquisition please?
“Q. Did anybody in the gang want to get guns?
“A. Yes, sir.
“Q. Were you one of those people?
“A. Yes, sir, I was.
“Q. Was a scheme ever hatched to acquire guns?
“A. There was a plan that started out in September that—that was the first time that it
was mentioned, a plan was mentioned.
“Q. Who was involved in the plan?
“A. At the time in September it was myself, Benjamin Mullins and Jason Robinson.
[* * *]
“Q. Who brought it up?
“A. Ben brought it up.
“Q. What did he say?
“A. He said that he had a plan, he had a perfect
plan to get guns and he said that him (sic)
and Jason would go inside. They were going
to find a pawn shop. They were going to go
inside the pawn shop while I waited outside
and then when they came out I was supposed
to drive them back and we were going to
hide the guns for six to eight months until
the press and everything died down.
[* * *]

App.41a
“Q. I understand that. When did Jason get
involved?
“A. Jason was involved in it the first time Ben
told me about it.
[* * *]
“Q. Now, when did, when did you get down to
seriously planning this?
“A. Really the serious planning didn’t start
until the end of September when Fred got
involved.
“Q. Who is Fred?
“A. Freddie Li the other defendant in the case.
[* * *]
“Q. So did you Jason and Fred ever meet to
execute this plan?
“A. We, we talked about—Fred and myself talked
about it but Jason, myself and Fred never
got together to talk about it until two days
before the murder happened.
“Q. Where did you get together two days before
the murder happened?
“A. We got together at Fred’s house” (RR-IV, pp.
29-32, 33, 35).
63. The record reflects that Park testified further
about the preparation he, Freddie Li, and the Applicant
made for the robbery, and that the morning of the
robbery, after arming themselves, they drove to the
pawn shop and waited for the right time to enter.

App.42a
“Q. So how long were you parked there looking
at the pawn shop?
“A. We were parked there for about 30 minutes.
“Q. Did you do anything in the way of
preparation while there?
“A. We were—as we were sitting in the truck
Fred was talking about how he wished—he
said that he was thinking a lot about
plunging a knife through the top of somebody’s
skull and I told him that there’s a knife in
the glove box that would, that was more
than likely long enough to do it and it would
not come back missing. So he looked at the
knife. He said this will work. And he gave
me back my hak-do knife.
[* * *]
“Q. What did Jason Robinson do, if anything,
whenever Fred said that he wanted to
plunge through the skull of a clerk?
“A. Jason, Jason didn’t say anything. Jason was
just sitting there smoking a cigarette.
“Q. Did anybody—you mentioned weapons, who
had them?
“A. Jason had a sawed off shot gun and Fred
had the .25.
“Q. What is a .25?
“A. .25 caliber pistol, hand pistol, hand gun”
(RR-IV, pp. 40.41).

App.43a
Rick Lomba
64. The record reflects that Rick Lomba, another
gang member, also was called as a witness by the State,
and under direct examination by Mr. Bledsoe, testified
about a conversation he had with the Applicant after
the robbery and murder had been committed:
“Q. What did you say when you went up to him?
“A. I told him that I heard they did it.
“Q. What did he say?
“A. He said ‘Yeah, it was easy.”
“Q. What did you say?
“A. Nothing. I was just making fun of him.
[* * *]
“Q. What did he tell you about the robbery and
the murder?
“A. They said—well, he said that they asked to
look a speaker box and they grabbed him
and tied him up.
“Q. Who did he say they was?
“A. Jason and Freddie Li
“Q. What did he tell you they did after that?
“A. They went and took the video tape and took
the guns.
“Q. Did he tell you who took the video tape?
“A. Jason took the video tape and I think either
Fred of both of them took the guns.
“Q. What did he tell you about the clerk?

App.44a
“A. That they tied him up.
“Q. What else did he tell you about the clerk?
“A. That they killed him.
“Q. Did he tell you how they killed him?
“A. No.
“Q. Did he tell you whether they shot him or
stabbed him?
“A. No, sir. They said it was best I didn’t know.
“Q. What did he say about the clerk’s behavior?
“A. They said he cooperated but they had to kill
him because he had seen their faces.
“Q. Who’s telling you this?
“A. Jason told me once, Fred told me once.
“Q. When did Jason told (sic) you at the bus,
getting off the bus?
“A. Yes, sir.
“Q. Where were you guys going when Jason is
telling you this?
“A. Nowhere. We were standing in the street”
(RR-IV, pp. 229, 230-232).
Benjamin Mullins
65. The record reflects that Benjamin Mullins,
another gang member, was called as a witness for the
State, and under direct examination by Mr. Bledsoe,
testified about conversations that he had with Freddie
Li and the Applicant after the robbery.

App.45a
“Q. So you told Fred that Jason had said that
he did the stabbing?
“A. Yes.
[* * *]
“Q. So Fred told you at his house after Jason
was in jail that he’d done the stabbing?
“A. Yes.
“Q. What else did he tell you?
“A. He told me that he had some guns hidden
up in his attic.
“Q. But what else did he tell you about the day
that he and Jason went and did the pawn
shop?
“A. He just, he pretty much just described, you
know, that they went in and they did the
thing and he described how he stabbed the
clerk in the neck and the chest.
“Q. Did he tell you who went in?
“A. Jason and him.
“Q. Did he say anything about Danny?
“A. No.
“Q. Talk about Danny driving?
“A. No.
“Q. Did you tell him you knew that Danny had
driven?
“A. I believe so.
“Q. So his emphasis was on what happened
while they were in there?

App.46a
“A. Yes.
“Q. Did he say anything about what Jason did
while they were in there?
“A. I can’t remember the exact details.
“Q. Well, what do you remember generally?
“A. I remember that he said that they got the
guns and I believe he said that Jason had
bound and gagged the guy.
“Q. Did he say why he stabbed him?
“A. He said that Jason was supposed to do it
but he said Jason just couldn’t do it so he
did it.
“Q. So the plan going in was to stab him. Jason
couldn’t do it, so he did it. Is that what he
told you?
“A. Yes” (RR-V, pp. 53; 54-55).
Summary
66. First, despite the Applicant’s attempt to
characterize the difference between a sentence of life
and LWPOP in the State of Texas as “semantics,”
and “word-play,” the record clearly reflects that the
Applicant was sentenced to life and not LWPOP, and
there is no showing by the Applicant that Texas courts
have adopted his view that there is no difference
between the two.
67. Second, given that the Applicant is not serving
a sentence of LWPOP, his case is distinguishable for
both Miller and Graham, therefore, the Court finds
that the holdings contained in those cases are of
limited precedential value as to the Applicant’s case.

App.47a
68. Third, the Court finds that pursuant to
Graham and Miller, here the Applicant asserts a
categorical Eighth Amendment bar on his life sentence,
assuming, arguendo, that it is equivalent to a sentence
of LWPOP, because he did not kill or intent to kill,
therefore, as a juvenile he had a “twice diminished
moral culpability.” See Applicant’s Amended Memorandum, p. 48.
69. The Court finds that according to the Applicant: Freddie Li stabbed the pawn shop clerk, and he
refused to participate in the killing, and was “scared”
after beginning the robbery. Id.
70. However, the Court finds that the record
reflects that the Applicant: planned the robbery with
the members of his gang (RR-IV, p. 33); before committing the robbery armed himself with a sawed-off
shot gun (RR-IV, p. 41); calmly smoked a cigarette as
he, Freddie Li and Daniel Park waited to commit the
robbery, and listened while Freddie described how he
wanted to plunge a knife into someone’s skull (RRIV, p. 40); said that committing the robbery was “easy”
(RR-IV, p. 229); said that the clerk was cooperative
but they had to kill him because he has seen their
faces (RR-IV, p. 231); and, gagged and bound the
clerk, and had agreed to kill the clerk (RR-V, p. 55).
71. The Court finds that the Applicant did not
kill the pawn shop clerk, but the record reflects that
more than once, he expressed an intention to kill the
clerk, or an intention that the clerk be killed.
72. Therefore, even assuming that the Applicant
had been sentenced to LWPOP, and the Graham and
Miller “categorical bar” for a juvenile who did not kill
or intent to kill applied, the Court finds that there is

App.48a
a solid argument to be made that the Applicant does
not have the “twice diminished moral culpability”
enunciated in Miller.
73. The Court, for the reasons stated, finds the
categorical bar for a juvenile who did not kill or
intent to kill, announced in Graham and Miller, and
asserted by the Applicant in ground two, inapplicable
in the Applicant’s case, for the reasons stated, and
moreover, the Court is unpersuaded that even if it
applied to the Applicant’s case, he would meet the
standard.
Ground Three-Order Certifying Applicant to Stand
Trial as Adult is Insufficient
74. The Court finds that in ground three the
Applicant alleges that the order certifying him to
stand trial as an adult was insufficient under Moon
v. Texas, 451 S.W.3d 28 (Tex.Crim.App. 2014).
75. According to the Applicant, to be valid under

Moon, a transfer order must include the specific facts

and evidence on which the juvenile judge relied in
finding that as a result of the seriousness of the
offense, or the background of the child, the welfare of
the community requires criminal proceedings. See
Applicant’s Amended Petition, p. 52.
76. The Court finds that the Applicant cites the
United States Supreme Court decision in Kent v.
United States, 383 U.S. 541, 86 S. Ct. 1045, 16 L.Ed.2d
84 (1966), as establishing that the waiver of juvenile
court jurisdiction represents “a ‘critically important’
action determining vitally important statutory rights
of the juvenile,” and as such, the juvenile court order
in Kent was defective because it failed to grant a

App.49a
hearing, failed to give the juvenile’s counsel access to
records requested, and failed to state in its order the
reason it was waiving jurisdiction. See Kent, 560565.
77. According to the Applicant, the juvenile
court’s March 1995 transfer order in his case fails to
satisfy the dictates of Moon v. Texas that the juvenile
court must “show its work” in the transfer order, and,
therefore, never validly transferred exclusive jurisdiction over his case to the district court. See Applicant’s Amended Petition, p. 54.
78. Specifically, he alleges that the transfer
order is insufficient under Moon because it fails to
reference several of the factors required by Kent and
§ 54.02(f) of the Family Code, and explains none of
the evidence on which its findings were made. Id at
5455.
Subsequent Petition
79. However, the record reflects this is a subsequent Petition by the Applicant, his previous one
having been filed and disposed of on the merits in
1999.
80. It is well settled, that a court may not consider the merits of an application, if it does not contain sufficient facts establishing that: (1) the current
claims have not and could not have been presented
previously; or (2) by a preponderance of the evidence,
but for a violation of the United States Constitution,
no rational juror could have found him guilty beyond
a reasonable doubt. See Tex. Code Crim. Proc. Ann.,
art. 11.07, § 4(a)(1) &(2) (West Supp. 2018).

App.50a
81. In Ex parte Navarro, No. WR-82,264-03 & -04
(Tex.Crim.App., delivered January 10, 2018) (published), Navarro, in a subsequent Petition, claimed
that his transfer order from the juvenile court to the
district court, where he was later tried and convicted
of murder and aggravated assault, and assessed 99year and 20-year sentences, respectively, was legally
and factually insufficient under Moon. See Ex parte
Navarro, slip op. 2-4.
82. However, the Court finds that the CCA did
not reach the merits of Navarro’s claim, because it
determined that he had failed to show that his subsequent Petitions satisfied the Article 11.07, Section
4 subsequent-writ bar. Id. at 2.
83. The CCA explained that:
“We do not reach the submission issues, however, because Navarro cannot overcome the
subsequent-writ bar. The legal basis for the
sufficiency claim was available before Moon,
including when he filed his initial writ
applications challenging his convictions. And
even if the legal basis had not been recognized, Navarro could have reasonably formulated his claim based on United States
Supreme Court and Texas appellate court
precedent.” Id. at 4.
84. In its opinion, the CCA notes that Kent v.
United States, decided by the United States Supreme
Court in 1966, addressed the sufficiency of juvenile
transfer orders, and that in fact, Texas law was
changed to codify Kent. Id. at 8.

85. Based on the Court of Criminal Appeals
recent decision in Ex parte Navarro, the Court finds

App.51a
that the Applicant has failed to show that his ground
three, the alleged insufficiency of the juvenile court
transfer order in his case, satisfies the Texas Code of
Criminal Procedure Article 11.07 Section 4 subsequentwrit bar, and, therefore, is not properly before the
court.
II.
CONCLUSIONS OF LAW
Based on the contentions raised by the Applicant, and a study of the applicable law raised by the
issues, this Court makes the following Conclusions of
Law:
Ground One–
TPC § 19.03(a)(2) Violates the Eighth Amendment
1. Because the Applicant was convicted of
capital murder and sentenced to life pursuant to
Texas Penal Code Sections 19.03(a)(2) (West 1994)
and 8.07(d) (West 1994), he fails to show that the
United States Supreme Court decisions announced in
Montgomery v. Louisiana, Miller v. Alabama, and
Graham v. Florida, which bar sentences of LWPOP
for juveniles, makes his sentence unconstitutional.
See Lewis v. State, 428 S.W.3d 860 (Tex.Crim.App.
2014) and Turner v. State 443 S.W.3d 128 (Tex.Crim.
App. 2014) (juvenile sentences of LWPOP reformed
to life after Miller did not require individualized
sentencing).
2. The Applicant has failed to show that the
Texas juvenile capital punishment scheme, which
includes Texas Penal Code Sections 19.03(a)(2) and
12.31(a) is unconstitutional when applied to his case,
because he was not sentenced to LWPOP. Matthews

App.52a

v. State, 513 S.W.3d 45, 61 (Tex.App.—Houston [14th

Dist.] 2016. pet. red) (Texas juvenile capital punishment scheme not unconstitutional).
Ground Two–
The Eighth Amendment Categorically Bars a Life
Sentence for a Juvenile

3. The Applicant fails to show that his life
sentence is categorically barred under the Eighth
Amendment to the United States Constitution by the
United States Supreme Court cases of Graham v.
Florida or Miller v. Alabama, because he was not
sentenced to LWPOP as the defendants were in those
cases. See Shalouei v. State, 523 S.W.3d 766
(Tex.App.—Houston [14th Dist.] 2017, pet. ref d) (40
years mandatory minimum time served does not
equate to a sentence of LWPOP).
Ground Three–
Order Certifying Applicant to Stand Trial as Adult is
Insufficient
4. The Applicant is procedurally barred from
advancing his claim that the transfer order certifying
him to stand trial as an adult, is insufficient because
it does not contain sufficient facts establishing that:
(1) the current claims have not and could not have
been presented previously; or (2) by a preponderance
of the evidence, but for a violation of the United
States Constitution, no rational juror could have
found him guilty beyond a reasonable doubt. See Tex.
Code Crim. Proc. Ann., art. 11.07, § 4(a)(1) &(2) (West
Supp. 2018).

App.53a
III.
RECOMMENDATION
Having considered the Applicant’s Petition, the
State’s Answer, and the record, the Court recommends that relief requested be denied.
IV.
TRANSMITTAL ORDER
1. The Clerk is directed to prepare a transcript
to include copies of the following documents: the
Applicant’s Amended Petition, Memorandum &
Appendix;
2. The Motion to Enter Proposed Findings of Fact
and Conclusions of Law;
3. The Findings of Facts and Conclusions of Law
of the Court; and transmit the same to the Court of
Criminal Appeals in Austin, Texas. The Clerk is further directed to serve a signed copy these Findings of
Fact and Conclusions of Law upon the attorney for
the Applicant.

App.54a

App.55a
DISTRICT ATTORNEY MOTION
TO ENTER PROPOSED FINDINGS OF
FACT AND CONCLUSIONS OF LAW
(JANUARY 26, 2018)
IN THE 27TH JUDICIAL DISTRICT COURT OF
BELL COUNTY, TEXAS
________________________
EX PARTE
JASON ISAIAH ROBINSON
________________________
No. 45,401-B
TO THE HONORABLE JUDGE OF SAID COURT:
COMES NOW the State of Texas by and through
her District Attorney for the 27th Judicial District,
and moves the Court to consider and enter in this
case the proposed Findings of Fact and Conclusions
of Law as those of the Court.
Respectfully submitted,
Henry Garza
District Attorney
27th Judicial District

App.56a
By: /s/ Sean K. Proctor
TSB#16349500
Assistant District Attorney
27th Judicial District
Post Office Box 540
Belton, Texas 76513
(254) 933-5215
(254) 933-5704 [FAX]
Sean.Proctor@bellcounty.texas.gov

App.57a
FINDINGS OF FACT
AND CONCLUSIONS OF LAW (PROPOSED)
IN THE 27TH JUDICIAL DISTRICT COURT OF
BELL COUNTY, TEXAS
________________________
EX PARTE
JASON ISAIAH ROBINSON
________________________
No. 45,401-B
Came on for consideration the Applicant’s request
for post-conviction Writ of Habeas Corpus relief, filed
pursuant to Article 11.07 of the Texas Code of Criminal
Procedure, and having considered the same, the Court
enters the following Findings of Fact and Conclusions
of Law:
I.
HISTORY OF THE CASE
1. The Applicant is currently in the custody of
the Corrections Institutional Division of the Texas
Department of Criminal Justice (“TDCJ”) by virtue of
a Judgment of conviction entered in the 27th District
Court of Bell County, Texas, in Cause Number 45,401,
wherein he was convicted of the felony offense of
capital murder.

The Crime
2. The record reflects that in October of 1994,
the 16-year-old Applicant, and several other members

App.58a
of the street gang “Gong Pai,” which means “gangster”
in Korean, hatched a plan to steal guns from the 19th
Hole Pawn Shop in Killeen, Texas. See Robinson v.
State, No. 03-95-00559-CR (Tex. App.—Austin, delivered May 29, 1996) (not designated for publication),
slip op. at 1-2.
3. Specifically, on the morning of October 14,
1994, the Applicant and fellow gang members Freddie
Li and Daniel Park, drove to the 19th Hole Pawn Shop
in Park’s pickup, and while Park waited in his truck,
the Applicant and Li, armed with pistols and a knife,
entered the store. Id.
4. Once inside, they lured Troy Langseth, the
unsuspecting clerk over to show them an item, and
when he reached them, the Applicant and Li bound and
gagged him. Id.
5. They then seized numerous guns and the store
surveillance video. Id.
6. The gang members put the stolen guns and the
surveillance video in a duffle bag Li brought with
him, but before existing the store, Li stabbed the
helpless store clerk four times, killing him. Id.
7. The record reflects, that the Applicant was
charged in juvenile court with delinquent conduct, to
wit: capital murder, and was taken into custody. See
Tex. Penal Code Ann. § 19.03(a)(2) (West Supp. 1994).

Waiver of Jurisdiction and Transfer to District Court
8. On May 16, 1995, after an investigation and a
hearing, the record reflects that the juvenile court
waived jurisdiction over the Applicant, certified him
to stand trial as an adult, and transferred his case to

App.59a
district court. See Tex. Fam. Code § 54.02(a) (West
Supp. 1994).

Trial and Post-Trial Proceedings
9. On May 17, 1995, the record reflects that he
was indicted by the Bell County Grand Jury for the
27th District Court for the offense of capital murder,
in Cause Number 45,401. See Indictment.
10. On August 7, 1995, the Applicant pled not
guilty to the charge of capital murder, but after a two
day jury trial, he was found guilty and automatically
sentenced to life imprisonment. See Tex. Penal Code
Ann. § 12.31(a) (West Supp. 1994) & Judgment of
Conviction.
11. On September 6, 1995, the record reflects
that the Applicant filed a Motion for New Trial, alleging
that his confession was admitted in violation § 51.12
of the Texas Family Code, because it was taken while
he was being held at an adult detention facility. See
Motion for New Trial.
12. However, on September 14, 1995, after a hearing, the record reflects that the trial court denied the
Applicant’s motion (RR-VII, pp. 2-18).
13. The Applicant appealed his conviction, but it
was affirmed by the Third Court of Appeals on May
29, 1996.1
14. On August 5, 1996, the record reflects that
the Applicant filed a Petition for Discretionary
Review (“PDR”) with the Court of Criminal Appeals
1 See Robinson v. State, No. 03-95-00559-CR (Tex.App.—Austin,
delivered May 29, 1996) (not designated for publication).

App.60a
(“CCA”), but it was refused on October 23, 1996,2
allowing the Third Court of Appeals to issue its Mandate on March 24, 1997. See Mandate.

Initial Post-Conviction Application
15. On January 6, 1999, the record reflects that
the Applicant filed his initial Petition for post-conviction Writ of Habeas Corpus relief, and in it, he alleged
that: (1) he received ineffective assistance at his trial;
(2) he was illegally detained as a juvenile; (3) there
was insufficient evidence to corroborate the accomplice
witness testimony; and, (4) he was not given credit
for the time that he was held in a juvenile detention
facility before being certified to stand trial as a adult.
See Applicant’s Application, Cause No. 45, 401-A.
16. On April 21, 1999, the trial court entered
Findings of Fact and Conclusions of Law, recommending that he be granted additional jail credits, but
that he be denied all other requested relief. See Order,
Cause No. 45, 401-A.
17. In a written opinion delivered June 9, 1999,
the CCA agreed, and instructed TDCJ to credit the
Applicant’s sentence with an additional 124 days, but
ordered that he be denied all other requested relief.3

2 See Jason Isaiah Robinson, No. PD-1158-96 (Tex.Crim.App.,
pet. ref d, October 23, 1996) (not designated for publication).
3 See Ex parte Jason Isaiah Robinson, No. WR-41,486-01
(Tex.Crim.App., delivered June 9, 1999) (not designated for
publication).

App.61a
Subsequent Post-Conviction Application & Motion to
Stay
18. The record reflects that on January 26, 2017,
the Applicant filed this subsequent Petition for postconviction relief, and simultaneously filed a “Motion
to Stay Application for Writ of Habeas Corpus and
for Leave to Amend.” See Motion to Stay Application
for Writ of Habeas Corpus and Leave to Amend filed
1-26-17.
19. In this Petition, he alleged that: (1) Texas
Penal Code 19.03(a)(2)4 violates the Eighth Amendment
to the United States Constitution because it imposes
a categorical sentence of life imprisonment on any
juvenile convicted of capital murder; (2) the Eighth
Amendment bars a life sentence for a juvenile who
did not kill, or intent to kill; and, (3) the order transferring jurisdiction from the juvenile court was
legally insufficient under Moon v. Texas.
20. In his Motion to Stay his Petition, the Applicant explained, that he filed his Petition “reluctantly”
in order to “properly preserve federal review over
these claims,” but that he had so far been unable to
obtain the requisite records, and requested that the
habeas court “stay” his Petition until August 1, 2017,
so that he may obtain those documents, follow up as
appropriate, and amend his Petition accordingly.
4 The Court notes that Texas Penal Code § 19.03(a)(2), the capital
murder statute, defines the offense of capital murder but imposes
no penalty for its violation. The punishment provisions are
contained in Texas Penal Code § 12.31(a). Therefore, the Court
will consider the Applicant’s Petition a challenge to the constitutionality of the Texas capital punishment scheme for juvenile
offenders.

App.62a
21. The State filed its Answer to the Applicant’s
Petition on February 7, 2017, generally denying its
allegations, but the habeas court took no action on
his Motion to Stay.
22. On March 30, 2017, the District Clerk forwarded to the CCA the then existing habeas record in
the Applicant’s case, and on March 31, 2017, the
CCA acknowledged receipt.
23. On August 3, 2017, the Applicant filed a
“Motion to Stay Application for Writ of Habeas Corpus”
in the CCA, and on August 9, 2017, the State filed a
Response to the Applicant’s Motion.
24. On September13, 2017, the CCA granted the
Applicant’s Motion to Stay.5
25. On December 1, 2017, the Applicant filed an
Amended Petition for Writ of Habeas Corpus relief
alleging the same three grounds advanced in his
original filing on January 26, 2017.
Allegations of the Applicant
26. In ground one the Applicant alleges that
Texas Penal Code 19.03(a)(2) violates the Eighth
5 The Court finds that neither the State nor the habeas court was
notified that the Applicant’s Motion to Stay had been granted
by the CCA on September 13, 2017. On December 1, 2017, the
Applicant filed his Amended Petition with the Bell County District Clerk. Upon receipt, the habeas court’s file was searched in
an effort to locate notice of the ruling from the CCA on the
Applicant’s Motion to Stay, and when none was found in either
file, contacted the CCA by telephone. The post-conviction writ
section of the CCA verified that the Applicant’s Motion to Stay
was indeed granted on September 13, 2017, but, unfortunately,
notice of the CCA’s action was not sent to the habeas court or
the State, only to the Applicant. The CCA apologized for the error.

App.63a
Amendment to the United States Constitution because
it imposes a categorical sentence of life on any juvenile
convicted of capital murder.
27. In ground two the Applicant alleges that the
Eighth Amendment to the United States Constitution
categorically bars a life sentence for a juvenile who
did not kill or intent to kill.
28. In ground three the Applicant alleges that
the juvenile court transfer order certifying him to
stand trial as an adult was legally insufficient under

Moon v. Texas.

Necessity for an Evidentiary Hearing or Expansion
of the Record
29. The Court finds that none of the Applicant’s
allegations require the resolution of controverted,
previously unresolved facts, therefore, the existing
record is sufficient to answer his Petition.
Ground One–
TPC § 19.03(a)(2) Violates the Eighth Amendment
30. The Court finds that in ground one the
Applicant alleges that Texas Penal Code Section
19.03(a)(2) violates the Eighth Amendment to the
United States Constitution because it imposes a
mandatory sentence of life on any juvenile convicted
of capital murder.6
31. Specifically, according to the Applicant, Texas
Penal Code § 19.03(a)(2), is unconstitutional because
6 The mandatory life sentence was imposed on the Applicant by
Texas Penal Code § 12.31(a). See Tex. Penal Code Ann., § 12.31(a)
(West Supp. 1994).

App.64a
it imposes a “categorical” sentence of life on a
juvenile, and does not allow for the individualized
consideration of the “diminished capacity” of a juvenile
before the “imposition of any life without parole
sentence.” See Applicant’s Amended Memorandum,
p. 16.
32. It is well settled, that the facial constitutionality of a criminal statute is reviewed de novo,
and it is presumed that the statute is valid, and that
the legislature did not act arbitrarily and unreasonably in enacting it. See Ex parte Lo, 424 S.W.3d 10,
14 (Tex. Crim.App. 2013) (de novo review), and Rodriguez v. State, 93 S.W.3d 60, 69 (Tex. Crim.App. 2002)
(validity presumed).
33. According to the Applicant, the categorical ban
on certain punishments for juveniles began with the
United States Supreme Court’s decision in Roper v.
Simmons,7 543 U.S. 551, 125 S. Ct. 1183, 161 L.Ed.2d
7 In Roper, 17-year-old Christopher Simmons, in chilling callous
terms, told friends that he wanted to “murder” someone. He
proposed to them to commit burglary and murder by breaking
and entering, tying up a victim, then throwing the victim off a
bridge. He assured his friends that they would get away with it
“because they were minors.” On the morning of the murder,
Simmons and his friend, Charles Benjamin, entered the home of
the victim, Shirley Crook, by reaching through an open window
and unlocking the back door. Mrs. Crook woke up and called out
“Who’s there?” In response, Simmons entered her bedroom, and
with duct tape, covered her eyes and mouth and bound her
hands. Simmons and Benjamin put Mrs. Crook in her own
minivan and drove to a Missouri state park. After they arrived,
they reinforced the bindings, covered her head with a towel, and
walked her to a railroad trestle spanning the Meramec River.
They then tied her hands and feet together with electrical wire,
wrapped her whole face in duct tape and threw her from the
bridge, drowning her in the waters below. The next day, Steve

App.65a
1 (2005), when it announced a ban on the imposition
of the death penalty for offenders who were under 18
years-of-age when they offended because they were
“less culpable” than the average criminal.
34. The Court finds, that next, the Applicant cites
Graham v. Florida,8 560 U.S. 48, 130 S. Ct. 2011, 176
Crook, Shirley Crook’s husband, returned from an overnight
trip to find his bedroom in disarray and his wife missing.
Simmons confessed to the crime, and was tried for stealing,
kidnapping, burglary and murder. He was found guilty and
sentenced to death. Roper, 543 U.S. at 556.
8 According to the Supreme Court’s opinion, Terrance Jamar
Graham, the defendant, was born to drug addicted parents in
January of 1987. He was diagnosed with attention deficit
hyperactivity disorder in elementary school, and began smoking
cigarettes at nine, and smoking Marijuana at 13. In July of
2003, when Graham was age 16, he and three other school-age
youths attempted to rob a barbeque restaurant in Jacksonville,
Florida. One of the youths, an employee, left the back door to
the restaurant unlocked, and Graham and one of the other
youths, wearing masks, entered the building. Graham’s accomplice
twice struck the restaurant manager on the back of the head
with metal bar, but when he started yelling they ran out and
fled in a car driven by one of the youths. The manager required
stitches for the head injury, but no money was taken. Graham
was arrested and charged as an adult with armed burglary with
assault (a first degree felony), and attempted armed robbery (a
second degree felony). He pled guilty on December 18, 2003, and
after convincing the judge that he had decided to “turn his life
around,” he was placed on three years deferred adjudication in
each case. He was required to spend the first 12 months of his
probation in the county jail, but after being given credit for pretrial detention, was released on June 25, 2004. On December 2,
2004, less than six months later, he was arrested for a home
invasion robbery. He and two adult accomplices had forced their
way into a home, held the two men there at gun point while
they ransacked the home, and left after they barricaded the two
victims in a closet. Later that same evening, Graham and his
two cohorts attempted a second robbery in which one of them

App.66a
L.Ed.2d 825 (2010), as more evidence of the Supreme
Court’s ban on “categorical” sentences for juveniles,
when it announced that a sentence of life with-the
possibility of parole (“LWPOP”) for a juvenile who did
not commit, or intent to commit homicide, constituted
“cruel and unusual punishment” under the Eighth
Amendment.
35. According to the Supreme Court, “[a] State
need not guarantee the offender eventual release, but
if it imposes a sentence of life, it must provide him or
her with some realistic opportunity to obtain release
before the end of that term.” Graham, 560 U.S. at 82.
36. Next, in Miller v. Alabama,9 567 U.S. 460, 132
S. Ct. 2455, 183 L.Ed.2d 407 (2012), cited by the Appliwas shot. Graham, who was driving his father’s car, dropped
the two off at the hospital and fled. A policeman at the hospital
signaled for him to stop, but Graham drove away at a high rate
of speed. However, he was later apprehended when he crashed
into a telephone pole. Three handguns were found in the wrecked
car. When detectives interviewed Graham, who was just shy of
his 18th birthday, he denied involvement in the crimes. After a
violation report from Graham’s probation officer was filed, the Court
held a hearing. Graham admitted to violating his probation by
attempting to avoid arrest, and the Court found that he had
committed the home invasion robbery, possessed weapons, and
engaged in other criminal activity, and adjudicated him guilty.
He was sentenced to life for the armed burglary, and 15 years
for the attempted armed robbery. Because Florida had abolished
its parole system, a life sentence gave Graham no possibility of
release unless he was granted executive clemency. Graham, 560
U.S. at 54-57.
9 In Miller v. Alabama, the Supreme Court examined mandatory
sentencing schemes involving juveniles in two states. In Arkansas,
14-year-old Kuntrell Jackson and two other boys decided to rob
a video store. In route to the store, Jackson learned that one of
the boys had a sawed-off shot gun up his sleeve. They arrived at

App.67a
cant, the Supreme Court said with regard to the mandatory sentencing schemes for juveniles in Alabama
and Arkansas:
“Graham, Roper, and our individualized sentencing decisions make clear that a judge or
jury must have the opportunity to consider
mitigating circumstances before imposing
the harshest possible penalty for juveniles.
By requiring that all children convicted of
the store and Jackson stayed in the car while the others went
inside. The one with the gun demands money from the clerk,
and points the gun at her, but she refuses. Jackson goes inside
he store and finds money still being demanded from the clerk,
and she still refusing to hand it over. However, when she
threatens to call the police, she is shot and killed. The boys flee
empty handed. Jackson is tried as an adult for capital murder
and armed robbery, is convicted by a jury of both crimes, and is
automatically sentenced to life without the possibility of parole.
One night in 2003 in Alabama, 14-year-old Evan Miller, who, by
all accounts had had a very troubled childhood, was at home
with Colby Smith, a friend, when a neighbor, Cole Cannon, came
over to make a drug deal with Evan’s drug addicted mother.
The two boys followed Cannon back to his trailer where they all
smoked Marijuana and drank. Cannon passed out, Evan took
Cannon’s wallet from his back pocket, splitting the $300 inside
with Colby. When Evan tried to put the wallet back in Cannon’s
pocket, he woke up and grabbed Evan by the throat. Evan hit
Cannon with a nearby baseball bat, and kept hitting him even
after he was released. Before delivering the final blow, he
covered Cannon’s head with a sheet and said “I am God, I’ve
come to take your life. The boys left but returned to cover up
their crime by setting the trailer on fire. Cannon died from his
injuries and smoke inhalation. Evan was charged with murder
in the course of arson and tried as a adult. The jury convicted
him and he was sentenced to a mandatory life without the
possibility of parole. The Alabama Court of Criminal Appeals
affirmed the decision. Miller, 567 U.S. at 465-469.

App.68a
homicide received lifetime incarceration
without the possibility of parole, regardless
of their age and age-related characteristics
and the nature of their crimes, the mandatory
sentencing schemes before us violate this
principle of proportionality, and so the Eighth
Amendment’s ban on cruel and unusual
punishment.” Miller, 567 U.S. at 489.
37. Finally, in Montgomery v. Louisiana,10 ___
U.S. ___ , 136 S. Ct. 718, 193 L.Ed.2d 599 (2016), the
Supreme Court held that Miller v. Alabama announced
a new substantive rule of law, i.e., that sentences of
mandatory LWPOP for juveniles violates the Eighth
Amendment, and, therefore, Miller is retroactive in
cases on collateral review. Montgomery, 136 S. Ct. at
736.
38. The Applicant maintains that the Supreme
Court’s decisions in Roper, Graham, and Miller are
supported by “common sense,” and an “ever-growing
body of scientific research” that: (1) juveniles are less
capable of mature judgment than adults, and are more
prone to engage in risky behaviors; (2) juveniles are
more vulnerable to negative influences and outside
pressures; and (3) juveniles have a greater capacity
10 In Montgomery, the 17-year-old defendant killed a deputy
sheriff in East Baton Rouge, Louisiana, in 1963. He was convicted of murder and sentenced to death, but in 1966 the
Louisiana Supreme Court reversed the conviction, after finding
that public prejudice prevented a fair trial. He was retried, and
that jury returned a verdict of guilty without capital punishment.
Under Louisiana law, this verdict required the trial court to
impose an automatic life without parole sentence. The defendant
was 69 years old when the Supreme Court issued its opinion in
his case. Montgomery, L.Ed.2d at 610.11

App.69a
for change and reform than adults. See Applicant’s
Amended Memorandum, pp. 17-19.
39. In addition, the Court finds that according
to the Applicant, the imposition of a mandatory life
sentence on a juvenile convicted of capital murder
precludes parole eligibility until he serves 40 calendar
years, and based on a statistical analysis of Texas’
parole grant rates, he speculates that he will “almost
certainly never be paroled and will die in prison
without any ‘meaningful opportunity’ for release.”
See Applicant’s Amended Memorandum, pp. 20-21.
“Functional Equivalent” of LWPOP & Individualized
Sentencing
40. The Court finds, that central to the Applicant’s
request for relief is his theory that the automatic life
sentence he was assessed in the instant case, is the
“functional equivalent” of a sentence of LWPOP. See
Applicant’s Amended Memorandum, p. 20.
41. This is so, according to the Applicant, because
he is excluded from parole eligibility, or consideration
for good time, until he serves 40 calender years, at
which point the Board of Pardons and Paroles has the
sole discretion to grant or deny parole.11 Id. at 20-21.
42. The Court finds that the Applicant cites a
statistical analysis of parole grant rates in all the
50 States that was prepared by the University of
Minnesota in 2016, which found that Texas’s overall
11 The Applicant correctly notes that there is no constitutional
right to parole because the very existence of a parole system is
discretionary with the individual State. See Greenholtz v.
Inmates of Nebraska, 442 U.S. 1, 99 S. Ct. 2100, 60 L.Ed.2d 668
(1979).

App.70a
parole grant rate is 36 percent, but it has averaged
about 8 percent for those conviction of capital murder.
See Applicant’s Amended Memorandum, p.21.
43. Moreover, the Court finds that the Applicant
cites an article published in the Houston Press (a
weekly newspaper distributed in Houston, Texas) dated
January 12, 2016, which claims that of the 366 Texas
juveniles sentenced to LWPOP for capital murder since
1962, only 17—less than 5 percent—have ever been
released. Id. at 22.
44. The Houston Press article, attached to the
Applicant’s Petition as Exhibit-F, also cites Joshua
Rover, state advocacy associate with the Sentencing
Project based in Washington, D.C., who is quoted as
saying:
“ . . . Texas’s new sentencing12 is among the
longest in the country that inmates incarcerated since they were teens must serve before
they have a chance at release. He called it a
de facto life sentence. And, he added, the
possibility of parole guarantees nothing. ‘A
chance at parole is only real if people actually
receive it, he says.’’’ See Applicant’s Amended
Memorandum, Appendix to Memorandum,
Exhibit-F, p. 6 (“Sorry for Life?: Ashley Erin
12 In response to Miller v. Alabama, the Texas Legislature,
amended, effective July 22, 2013, Texas Penal Code Section
12.31(a) to say that” . . . An individual adjudged guilty of a
capital felony in a case in which the state does not seek the
death penalty shall be punished by imprisonment in the Texas
Department of Criminal Justice for: (1) life, if the individual
committed the offense when younger that 18 years of age.” See
Tex. Penal Code Aim., § 12.31(a)(1) (West Supp. 2018).

App.71a
Didn’t Kill Anyone, But She Drove Home the
Boys Who Did).
45. First, the Court finds that the Applicant’s
use of the term “an automatic life sentence” and “an
automatic sentence of LWPOP” interchangeably,
because in his view they are the same thing, but that
is not the current state of the law in Texas, or in the
Untied States.
46. Second, in Miller and Graham, the Supreme
Court banned sentences of automatic LWPOP for
juveniles who had been convicted of homicide and nonhomicide crimes, but they did not ban automatic life
sentences, and it is undisputed by the Applicant that
he received a life sentence.
47. Third, in Lewis v. State, 428 S.W.3d 860 (Tex.
Crim.App. 2014), which included a Bell County case,
the CCA held that two juveniles who were initially
sentenced to LWPOP, but whose sentences were
reformed to “life” after the Miller decision and the
amendments to the Texas Penal Code, were not
entitled to individualized sentencing because they
were no longer subject to sentences of LWPOP. See
Lewis at 863865.
48. Fourth, in Turner v. State, 443 S.W.3d 128
(Tex.Crim.App. 2014), the defendant, who was under
age 18 when he committed capital murder, was tried,
convicted, and sentenced to LWPOP, but while his case
was on appeal, Miller was decided by the Supreme
Court, and the appellate court agreed that Miller
applied and remanded his case for a new sentencing
hearing. See Turner at 128.
49. The Court finds, that the defendant in Turner
filed a PDR contending, in part, that he was entitled

App.72a
under Miller to individualized sentencing, and asked
the CCA to direct the appellate court to order such a
hearing, but the CCA declined, holding that the
defendant was entitled to have his sentence reformed
from LWPOP to life, but was not entitled to an individualized sentencing hearing. Id. at 129.
50. According to the Applicant, the CCA in Lewis
and Turner addressed the issue of whether sentences
that are reformed from LWPOP to life had to be individualized, but did not address whether a life sentence for a juvenile is the “functional equivalent” of a
sentence of LWPOP. See Applicant’s Amended Memorandum, pp. 34-35.
51. However, the Court finds that implicit in
the CCA’s decisions in Lewis and Turner is an answer
to the “functional equivalency” question, i.e., if the
CCA had held that the defendants were entitled to
individualized sentencing pursuant to Miller, could it
even be argued that it had not found that automatic
life was the functional equivalent of LWPOP?
52. Moreover, in Shalouei v. State, 523 S.W.3d
766 (Tex.App.—Houston [14th Dist.] 2017, pet. ref d),
the Fourteenth Court of Appeals in its opinion affirming
the defendant’s conviction of life imprisonment (he
was 17 when he committed the offense), noted that in
Montgomery v. Louisiana, the Supreme Court held that
a State may remedy a Miller violation by permitting
juvenile homicide offenders to be considered for parole
rather than resentencing them. See Shalouei at 769.
53. The Shalouei court added:
“In determining that Texas juvenile offenders
no longer face life without parole after Penal
Code section 12.31(a) was amended, the

App.73a
Court of Criminal Appeals did not specifically discuss the mandatory 40-year minimum time served . . . But the court’s determination affirming sentences of life with the
possibility of parole for juveniles—which
also would have been subject to a 40-year
mandatory minimum served under Government Code section 508.145(b)—confirms that
the statutory requirement of 40 years’ time
served before parole eligibility does not
equate to a sentence of life without parole
. . . ” See Shalouei at 769; Also see Matthews
v. State, 513 S.W.3d 45, 61 (Tex.App.—
Houston [14th Dist.] 2016. pet. red) (following
CCA holding in Lewis rejecting claims that
Texas punishment scheme for juvenile capital
offenders who are tried as adults is unconstitutional).
54. In summary, the Court finds that the Applicant’s life sentence was not the “functional equivalent”
of a LWPOP sentence, and it follows then, that the
Supreme Court’s holding in Miller v. Alabama, requiring individualized sentencing assessments in LWPOP
cases involving juveniles, does not apply to the Applicant’s case.
55. In addition, the Court finds Texas’s punishment scheme for juvenile capital offenders who are
tried and sentenced as adults, which includes Texas
Penal Code §§ 19.03(a)(2) and 12.31(a)(1), does not
violate the Eighth Amendment’s cruel and unusual
punishment prohibition by being disproportionate,
and, is, therefore, constitutional.

App.74a
Ground Two–
The Eighth Amendment Categorically Bar a Life
Sentence for Juvenile
56. In ground two, the Applicant alleges that the
Eighth Amendment categorically bars a life sentence
for a juvenile who did not kill, or intent to kill, again,
advancing the narrative that a life sentence for a
juvenile is the “functional equivalent” of a sentence of
LWPOP.
57. According to the Applicant, this bar is in
keeping with the Supreme Court’s decisions in Graham
and Miller. See Applicant’s Amended Memorandum, p.
46.
58. However, the Court finds that in both Graham
and Miller, the juvenile defendants were sentenced
to LWPOP, which the Texas courts have distinguish
from a sentence of automatic life. See Lewis v. State
and Shalouei v. State, supra.
59. As for the merits of the Applicant’s ground,
that his sentence is barred by Miller and Graham
because he did not kill or intend to kill, he correctly
points out that the categorical bar of a LWPOP sentence
for an accomplice was not addressed in Miller.
60. The Court finds that, while it is true that
Freddie Li, the Applicant’s co-defendant, committed
the murder, and that the Applicant was convicted as
a party to the offense, the Court finds that the record
does not support the notion that the Applicant was
little more than a bystander and reluctant participant.

App.75a
Daniel Lee Park
61. The Court finds that Daniel Lee Park, one
of the Applicant’s co-defendants, testified as a State’s
witness at the Applicant’s trial, about his involvement
in a gang with the Applicant, and his connection to
the offense and its aftermath.
62. Under direct examination by Murf Bledsoe,
the prosecutor, Park testified as follows:
“Q. Mr. Park, let me ask you if you were in a
gang in the fall of 1994?
“A. Yes, sir, I was.
“Q. What was the name of the gang?
“A. The name of the gang was called Gong Pai.
“Q. What does that mean?
“A. It’s Korean for gangster.
“Q. Who was in the gang with you?
“A. There was myself, Benjamin Mullins, Rick
and Joe Lomba, Justin Luevano, Freddie Li,
Jason Robinson, a man named—a boy named
—I can’t remember his real name, but we
called him—I can’t remember his name. I
don’t remember.
Q.

You mentioned that (sic) Jason Isaiah
Robinson. Do you see him in the courtroom
today?

“A. Yes, sir, I do.
[* * *]
“Q. Mr. Park, did acquisition of guns ever come
up in your gang?

App.76a
“A. I’m sorry, can you define acquisition please?
“Q. Did anybody in the gang want to get guns?
“A. Yes, sir.
“Q. Were you one of those people?
“A. Yes, sir, I was.
“Q. Was a scheme ever hatched to acquire
guns?
“A. There was a plan that started out in September that—that was the first time that it
was mentioned, a plan was mentioned.
“Q. Who was involved in the plan?
“A. At the time in September it was myself,
Benjamin Mullins and Jason Robinson.
[* * *]
“Q. Who brought it up?
“A. Ben brought it up.
“Q. What did he say?
“A. He said that he had a plan, he had a perfect
plan to get guns and he said that him (sic)
and Jason would go inside. They were going
to find a pawn shop. They were going to go
inside the pawn shop while I waited outside
and then when they came out I was supposed
to drive them back and we were going to
hide the guns for six to eight months until
the press and everything died down.
[* * *]
“Q. I understand that. When did Jason get
involved?

App.77a
“A. Jason was involved in it the first time Ben
told me about it.
[* * *]
“Q. Now, when did, when did you get down to
seriously planning this?
“A. Really the serious planning didn’t start
until the end of September when Fred got
involved.
“Q. Who is Fred?
“A. Freddie Li the other defendant in the case.
[* * *]
“Q. So did you Jason and Fred ever meet to
execute this plan?
“A. We, we talked about—Fred and myself talked
about it but Jason, myself and Fred never
got together to talk about it until two days
before the murder happened.
“Q. Where did you get together two days before
the murder happened?
“A. We got together at Fred’s house” (RR-IV, pp.
29-32, 33, 35).
63. The record reflects that Park testified further
about the preparation he, Freddie Li, and the Applicant
made for the robbery, and that the morning of the
robbery, after arming themselves, they drove to the
pawn shop and waited for the right time to enter.
“Q. So how long were you parked there looking
at the pawn shop?
“A. We were parked there for about 30 minutes.

App.78a
“Q. Did you do anything in the way of preparation while there?
“A. We were—as we were sitting in the truck
Fred was talking about how he wished—he
said that he was thinking a lot about
plunging a knife through the top of somebody’s
skull and I told him that there’s a knife in
the glove box that would, that was more
than likely long enough to do it and it would
not come back missing. So he looked at the
knife. He said this will work. And he gave
me back my hak-do knife.
[* * *]
“Q. What did Jason Robinson do, if anything,
whenever Fred said that he wanted to
plunge through the skull of a clerk?
“A. Jason, Jason didn’t say anything. Jason was
just sitting there smoking a cigarette.
“Q. Did anybody—you mentioned weapons, who
had them?
“A. Jason had a sawed off shot gun and Fred
had the .25.
“Q. What is a .25?
“A. .25 caliber pistol, hand pistol, hand gun”
(RR-IV, pp. 40.41).
Rick Lomba
64. The record reflects that Rick Lomba, another
gang member, also was called as a witness by the State,
and under direct examination by Mr. Bledsoe, testified

App.79a
about a conversation he had with the Applicant after
the robbery and murder had been committed:
“Q. What did you say when you went up to him?
“A. I told him that I heard they did it.
“Q. What did he say?
“A. He said ‘Yeah, it was easy.”
“Q. What did you say?
“A. Nothing. I was just making fun of him.
[* * *]
“Q. What did he tell you about the robbery and
the murder?
“A. They said—well, he said that they asked to
look a speaker box and they grabbed him
and tied him up.
“Q. Who did he say they was?
“A. Jason and Freddie Li
“Q. What did he tell you they did after that?
“A. They went and took the video tape and took
the guns.
“Q. Did he tell you who took the video tape?
“A. Jason took the video tape and I think either
Fred of both of them took the guns.
“Q. What did he tell you about the clerk?
“A. That they tied him up.
“Q. What else did he tell you about the clerk?
“A. That they killed him.

App.80a
“Q. Did he tell you how they killed him?
“A. No.
“Q. Did he tell you whether they shot him or
stabbed him?
“A. No, sir. They said it was best I didn’t know.
“Q. What did he say about the clerk’s behavior?
“A. They said he cooperated but they had to kill
him because he had seen their faces.
“Q. Who’s telling you this?
“A. Jason told me once, Fred told me once.
“Q. When did Jason told (sic) you at the bus,
getting off the bus?
“A. Yes, sir.
“Q. Where were you guys going when Jason is
telling you this?
“A. Nowhere. We were standing in the street”
(RR-IV, pp. 229, 230-232).
Benjamin Mullins
65. The record reflects that Benjamin Mullins,
another gang member, was called as a witness for the
State, and under direct examination by Mr. Bledsoe,
testified about conversations that he had with Freddie
Li and the Applicant after the robbery.
“Q. So you told Fred that Jason had said that
he did the stabbing?
“A. Yes.
[* * *]

App.81a
“Q. So Fred told you at his house after Jason
was in jail that he’d done the stabbing?
“A. Yes.
“Q. What else did he tell you?
“A. He told me that he had some guns hidden
up in his attic.
“Q. But what else did he tell you about the day
that he and Jason went and did the pawn
shop?
“A. He just, he pretty much just described, you
know, that they went in and they did the
thing and he described how he stabbed the
clerk in the neck and the chest.
“Q. Did he tell you who went in?
“A. Jason and him.
“Q. Did he say anything about Danny?
“A. No.
“Q. Talk about Danny driving?
“A. No.
“Q. Did you tell him you knew that Danny had
driven?
“A. I believe so.
“Q. So his emphasis was on what happened
while they were in there?
“A. Yes.
“Q. Did he say anything about what Jason did
while they were in there?
“A. I can’t remember the exact details.

App.82a
“Q. Well, what do you remember generally?
“A. I remember that he said that they got the
guns and I believe he said that Jason had
bound and gagged the guy.
“Q. Did he say why he stabbed him?
“A. He said that Jason was supposed to do it
but he said Jason just couldn’t do it so he
did it.
“Q. So the plan going in was to stab him. Jason
couldn’t do it, so he did it. Is that what he
told you?
“A. Yes” (RR-V, pp. 53; 54-55).
Summary
66. First, despite the Applicant’s attempt to characterize the difference between a sentence of life and
LWPOP in the State of Texas as “semantics,” and
“word-play,” the record clearly reflects that the Applicant was sentenced to life and not LWPOP, and there
is no showing by the Applicant that Texas courts have
adopted his view that there is no difference between
the two.
67. Second, given that the Applicant is not serving
a sentence of LWPOP, his case is distinguishable for
both Miller and Graham, therefore, the Court finds
that the holdings contained in those cases are of
limited precedential value as to the Applicant’s case.
68. Third, the Court finds that pursuant to

Graham and Miller, here the Applicant asserts a

categorical Eighth Amendment bar on his life sentence,
assuming, arguendo, that it is equivalent to a sentence
of LWPOP, because he did not kill or intent to kill,

App.83a
therefore, as a juvenile he had a “twice diminished
moral culpability.” See Applicant’s Amended Memorandum, p. 48.
69. The Court finds that according to the Applicant: Freddie Li stabbed the pawn shop clerk, and he
refused to participate in the killing, and was “scared”
after beginning the robbery. Id.
70. However, the Court finds that the record
reflects that the Applicant: planned the robbery with
the members of his gang (RR-IV, p. 33); before committing the robbery armed himself with a sawed-off
shot gun (RR-IV, p. 41); calmly smoked a cigarette as
he, Freddie Li and Daniel Park waited to commit the
robbery, and listened while Freddie described how he
wanted to plunge a knife into someone’s skull (RRIV, p. 40); said that committing the robbery was “easy”
(RR-IV, p. 229); said that the clerk was cooperative
but they had to kill him because he has seen their
faces (RR-IV, p. 231); and, gagged and bound the
clerk, and had agreed to kill the clerk (RR-V, p. 55).
71. The Court finds that the Applicant did not
kill the pawn shop clerk, but the record reflects that
more than once, he expressed an intention to kill the
clerk, or an intention that the clerk be killed.
72. Therefore, even assuming that the Applicant
had been sentenced to LWPOP, and the Graham and
Miller “categorical bar” for a juvenile who did not kill
or intent to kill applied, the Court finds that there is
a solid argument to be made that the Applicant does
not have the “twice diminished moral culpability”
enunciated in Miller.
73. The Court, for the reasons stated, finds the
categorical bar for a juvenile who did not kill or

App.84a
intent to kill, announced in Graham and Miller, and
asserted by the Applicant in ground two, inapplicable
in the Applicant’s case, for the reasons stated, and
moreover, the Court is unpersuaded that even if it
applied to the Applicant’s case, he would meet the
standard.
Ground Three–
Order Certifying Applicant to Stand Trial as Adult is
Insufficient
74. The Court finds that in ground three the
Applicant alleges that the order certifying him to
stand trial as an adult was insufficient under Moon
v. Texas, 451 S.W.3d 28 (Tex.Crim.App. 2014).
75. According to the Applicant, to be valid under
Moon, a transfer order must include the specific facts
and evidence on which the juvenile judge relied in
finding that as a result of the seriousness of the
offense, or the background of the child, the welfare of
the community requires criminal proceedings. See
Applicant’s Amended Petition, p. 52.
76. The Court finds that the Applicant cites the
United States Supreme Court decision in Kent v.
United States, 383 U.S. 541, 86 S. Ct. 1045, 16 L.Ed.2d
84 (1966), as establishing that the waiver of juvenile
court jurisdiction represents “a ‘critically important’
action determining vitally important statutory rights
of the juvenile,” and as such, the juvenile court order
in Kent was defective because it failed to grant a
hearing, failed to give the juvenile’s counsel access to
records requested, and failed to state in its order the
reason it was waiving jurisdiction. See Kent, 560565.

App.85a
77. According to the Applicant, the juvenile
court’s March 1995 transfer order in his case fails to
satisfy the dictates of Moon v. Texas that the juvenile
court must “show its work” in the transfer order, and,
therefore, never validly transferred exclusive jurisdiction over his case to the district court. See Applicant’s Amended Petition, p. 54.
78. Specifically, he alleges that the transfer
order is insufficient under Moon because it fails to
reference several of the factors required by Kent and
§ 54.02(f) of the Family Code, and explains none of
the evidence on which its findings were made. Id at
5455.
Subsequent Petition
79. However, the record reflects this is a subsequent Petition by the Applicant, his previous one
having been filed and disposed of on the merits in
1999.
80. It is well settled, that a court may not consider the merits of an application, if it does not contain sufficient facts establishing that: (1) the current
claims have not and could not have been presented
previously; or (2) by a preponderance of the evidence,
but for a violation of the United States Constitution,
no rational juror could have found him guilty beyond
a reasonable doubt. See Tex. Code Crim. Proc. Ann.,
art. 11.07, § 4(a)(1) &(2) (West Supp. 2018).
81. In Ex parte Navarro, No. WR-82,264-03 &-04
(Tex.Crim.App., delivered January 10, 2018) (published), Navarro, in a subsequent Petition, claimed
that his transfer order from the juvenile court to the
district court, where he was later tried and convicted

App.86a
of murder and aggravated assault, and assessed 99year and 20-year sentences, respectively, was legally
and factually insufficient under Moon. See Ex parte
Navarro, slip op. 2-4.
82. However, the Court finds that the CCA did
not reach the merits of Navarro’s claim, because it
determined that he had failed to show that his subsequent Petitions satisfied the Article 11.07, Section
4 subsequent-writ bar. Id. at 2.
83. The CCA explained that:
“We do not reach the submission issues,
however, because Navarro cannot overcome
the subsequent-writ bar. The legal basis for
the sufficiency claim was available before
Moon, including when he filed his initial writ
applications challenging his convictions.
And even if the legal basis had not been
recognized, Navarro could have reasonably
formulated his claim based on United States
Supreme Court and Texas appellate court
precedent.” Id. at 4.
84. In its opinion, the CCA notes that Kent v.
United States, decided by the United States Supreme
Court in 1966, addressed the sufficiency of juvenile
transfer orders, and that in fact, Texas law was
changed to codify Kent. Id. at 8.

85. Based on the Court of Criminal Appeals
recent decision in Ex parte Navarro, the Court finds
that the Applicant has failed to show that his ground
three, the alleged insufficiency of the juvenile court
transfer order in his case, satisfies the Texas Code of
Criminal Procedure Article 11.07 Section 4 subse-

App.87a
quent-writ bar, and, therefore, is not properly before
the court.
II.
CONCLUSIONS OF LAW
Based on the contentions raised by the Applicant, and a study of the applicable law raised by the
issues, this Court makes the following Conclusions of
Law:
Ground One–
TPC § 19.03(a)(2) Violates the Eighth Amendment
1. Because the Applicant was convicted of capital
murder and sentenced to life pursuant to Texas Penal
Code Sections 19.03(a)(2) (West 1994) and 8.07(d) (West
1994), he fails to show that the United States
Supreme Court decisions announced in Montgomery
v. Louisiana, Miller v. Alabama, and Graham v.
Florida, which bar sentences of LWPOP for juveniles,
makes his sentence unconstitutional. See Lewis v.
State, 428 S.W.3d 860 (Tex.Crim.App. 2014) and
Turner v. State 443 S.W.3d 128 (Tex.Crim. App. 2014)
(juvenile sentences of LWPOP reformed to life after
Miller did not require individualized sentencing).
2. The Applicant has failed to show that the
Texas juvenile capital punishment scheme, which
includes Texas Penal Code Sections 19.03(a)(2) and
12.31(a) is unconstitutional when applied to his case,
because he was not sentenced to LWPOP. Matthews
v. State, 513 S.W.3d 45, 61 (Tex.App.—Houston [14th
Dist.] 2016. pet. red) (Texas juvenile capital punishment scheme not unconstitutional).

App.88a

Ground Two-The Eighth Amendment Categorically
Bars a Life Sentence for a Juvenile
3. The Applicant fails to show that his life sentence is categorically barred under the Eighth Amendment to the United States Constitution by the United
States Supreme Court cases of Graham v. Florida or
Miller v. Alabama, because he was not sentenced to
LWPOP as the defendants were in those cases. See
Shalouei v. State, 523 S.W.3d 766 (Tex.App.—Houston
[14th Dist.] 2017, pet. ref d) (40 years mandatory minimum time served does not equate to a sentence of
LWPOP).
Ground Three–
Order Certifying Applicant to Stand Trial as Adult is
Insufficient
4. The Applicant is procedurally barred from
advancing his claim that the transfer order certifying
him to stand trial as an adult, is insufficient because
it does not contain sufficient facts establishing that:
(1) the current claims have not and could not have
been presented previously; or (2) by a preponderance
of the evidence, but for a violation of the United States
Constitution, no rational juror could have found him
guilty beyond a reasonable doubt. See Tex. Code Crim.
Proc. Ann., art. 11.07, § 4(a)(1) &(2) (West Supp. 2018).
III.
RECOMMENDATION
Having considered the Applicant’s Petition, the
State’s Answer, and the record, the Court recommends that relief requested be denied.

App.89a
IV.
TRANSMITTAL ORDER
1. The Clerk is directed to prepare a transcript
to include copies of the following documents: the
Applicant’s Amended Petition, Memorandum &
Appendix;
2. The Motion to Enter Proposed Findings of Fact
and Conclusions of Law;
3. The Findings of Facts and Conclusions of Law
of the Court; and transmit the same to the Court of
Criminal Appeals in Austin, Texas. The Clerk is further directed to serve a signed copy these Findings of
Fact and Conclusions of Law upon the attorney for
the Applicant.
Signed on __________________________.

Judge Presiding
27th District Court
Bell County, Texas

App.90a
NOTICE OF RECEIPT OF
SUPPLEMENTAL CLERK’S RECORD
(MARCH 22, 2018)
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
3/22/2018
ROBINSON, JASON ISAIAH
Tr. Ct. No. FR 45401-B WR-41,486-02
On this day a supplemental clerk’s record has
been received and presented to the Court.
Deana Williamson, Clerk
JASON ISAIAH ROBINSON
HUGHES UNIT - TDC # 739603
RT. 2, BOX 4400
GATESVILLE, TX 76597

